<html>
<title> - NRC POLICY AND GOVERNANCE OVERSIGHT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 
                  NRC POLICY AND GOVERNANCE OVERSIGHT

=======================================================================

                             JOINT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY

                                AND THE

                    SUBCOMMITTEE ON ENERGY AND POWER

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2012

                               __________

                           Serial No. 112-169


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                            ______________

                    U.S. GOVERNMENT PRINTING OFFICE
82-625 PDF                WASHINGTON : 2013
_____________________________________________________________________
Foe sale by the Superintendent of Documents, U.S. Government Office
Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; DC area (202)512-1800  Fax:(202)512-2104 Mail: Stop IDCC, Washington, DC 20402-0001



                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                  (ii)
              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
  Vice Chairman                        Ranking Member
ED WHITFIELD, Kentucky               TAMMY BALDWIN, Wisconsin
JOSEPH R. PITTS, Pennsylvania        G.K. BUTTERFIELD, North Carolina
MARY BONO MACK, California           JOHN BARROW, Georgia
JOHN SULLIVAN, Oklahoma              DORIS O. MATSUI, California
CHARLES F. BASS, New Hampshire       FRANK PALLONE, Jr., New Jersey
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan (ex 
BILL CASSIDY, Louisiana                  officio)
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)
                                 ------                                

                    Subcommittee on Energy and Power

                         ED WHITFIELD, Kentucky
                                 Chairman
JOHN SULLIVAN, Oklahoma              BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               KATHY CASTOR, Florida
GREG WALDEN, Oregon                  JOHN P. SARBANES, Maryland
LEE TERRY, Nebraska                  JOHN D. DINGELL, Michigan
MICHAEL C. BURGESS, Texas            EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         ELIOT L. ENGEL, New York
STEVE SCALISE, Louisiana             GENE GREEN, Texas
CATHY McMORRIS RODGERS, Washington   LOIS CAPPS, California
PETE OLSON, Texas                    MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     CHARLES A. GONZALEZ, Texas
CORY GARDNER, Colorado               HENRY A. WAXMAN, California (ex 
MIKE POMPEO, Kansas                      officio)
H. MORGAN GRIFFITH, Virginia
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     2
    Prepared statement...........................................     4
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     6
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................     6
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     7
    Prepared statement...........................................     8
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................     9
    Prepared statement...........................................    10
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................    13
    Prepared statement...........................................    14
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................    16

                               Witnesses

Allison M. Macfarlane, Chairman, Nuclear Regulatory Commission...    17
    Prepared statement...........................................    20
    Answers to submitted questions...............................    76
Kristine L. Svinicki, Commissioner, Nuclear Regulatory Commission    30
    Answers to submitted questions...............................    93
William D. Magwood IV, Commissioner, Nuclear Regulatory 
  Commission.....................................................    31
    Answers to submitted questions...............................   100
William C. Ostendorff, Commissioner, Nuclear Regulatory 
  Commission.....................................................    32
    Answers to submitted questions...............................   110

                           Submitted Material

Report, undated, of the Office of the Inspector General, Nuclear 
  Regulatory Commission, ``Possible Violations of the 
  Reorganization Plan No. 1 of 1980 and NRC's Internet Commission 
  Procedures by NRC Chairman,'' submitted by Mr. Shimkus \1\

----------
\1\ Internet link to the report is available on page 75.


                  NRC POLICY AND GOVERNANCE OVERSIGHT

                              ----------                              


                         TUESDAY, JULY 24, 2012

                  House of Representatives,
        Subcommittee on Environment and the Economy
                             joint with the
                  Subcommittee on Energy and Power,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:01 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the Subcommittee on Environment and the 
Economy) presiding.
    Present from the Subcommittee on Environment and the 
Economy: Representatives Shimkus, Murphy, Pitts, Bass, Latta, 
McMorris Rodgers, Cassidy, Barton, Upton (ex officio), Green, 
Butterfield, Barrow, Matsui, DeGette, Capps, Dingell, and 
Waxman (ex officio).
    Present from the Subcommittee on Energy and Power: 
Representatives Whitfield, Walden, Terry, Burgess, Bilbray, 
Scalise, Olson, McKinley, Gardner, Pompeo, Griffith, Rush, 
Castor, Markey, and Engel.
    Staff present: Nick Abraham, Legislative Clerk; Carl 
Anderson, Counsel, Oversight; Gary Andres, Staff Director; 
Charlotte Baker, Press Secretary; Mike Bloomquist, General 
Counsel; Sean Bonyun, Communications Director; Anita Bradley, 
Senior Policy Advisor to Chairman Emeritus; Maryam Brown, Chief 
Counsel, Energy and Power; Allison Busbee, Legislative Clerk; 
Annie Caputo, Professional Staff Member; Cory Hicks, Policy 
Coordinator, Energy and Power; Heidi King, Chief Economist; 
David McCarthy, Chief Counsel, Environment and the Economy; 
Andrew Powaleny, Deputy Press Secretary; Chris Sarley, Policy 
Coordinator, Environment and the Economy; Brett Scott, Staff 
Assistant; Peter Spencer, Professional Staff Member, Oversight; 
Lyn Walker, Coordinator, Admin/Human Resources; Jeff Baran, 
Democratic Senior Counsel; Phil Barnett, Democratic Staff 
Director; Alison Cassady, Democratic Senior Professional Staff 
Member; and Caitlin Haberman, Democratic Policy Analyst.
    Mr. Shimkus. The joint subcommittee hearing will now come 
to order.
    First of all, I want to welcome our friends from the 
Nuclear Regulatory Commission. And let me start by again 
welcoming you in particular. Well, let me just recognize myself 
for 5 minutes for an opening statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Again, welcome. And Chairman Macfarlane, congratulations. 
And it is good to meet with you for a few minutes before this 
session. Commissioner Apostolakis will be unable to be here 
today since he is visiting his mother in Greece. We wish him 
safe travel and pray that she feels better soon.
    A lot has happened since the Commission last testified 
before this committee. Early this year, the NRC issued the 
first license for new plants in 34 years. In March, the 
Commission issued orders to implement post-Fukushima 
improvements. Only 2 weeks ago, we saw a ``changing-of-the-
guard'' as Chairman Jaczko exited the Commission and Chairman 
Macfarlane was sworn in. Under Chairman Jaczko, the last 3 
years have been turbulent for the NRC, to say the least, and 
the change in leadership was long overdue.
    With the new chairman, today's hearing provides an 
excellent opportunity to review policy and governance of the 
Commission. We can gather important perspective from the 
commissioners, and importantly, Chairman Macfarlane, about the 
future of the Commission and its work. This is an opportunity, 
not to dwell on the past, but to look to the future through 
some of the important lessons of recent commission events and 
actions. It is critical for our oversight that we examine 
weaknesses in the NRC governance identified during the past 
chairman's tenure and to assess the many policy challenges 
facing the agency.
    One broad area of policy interest concerns regulatory 
priorities. In its other work, this committee has focused 
significant attention on the combined effect many substantial 
EPA regulations has had on our Nation's coal plants. It should 
be of no surprise I am similarly concerned about the potential 
impact of numerous post-Fukushima and other regulatory changes 
on our Nation's nuclear plants.
    Without a doubt, the industry must ensure safe operation 
and regulatory compliance. None of us would tolerate anything 
less. However, I believe it is incumbent on the Commission to 
consider the cumulative effect regulatory changes have on 
safety. In a March 2011 information paper to the Commission, 
the NRC staff cautioned that the cumulative Effects of 
Regulation ``can potentially distract licensee or entity staff 
from executing other primary duties that ensure safety or 
security.'' I believe this cumulative effect risk is valid.
    The NRC and the industry had a full workload of safety 
improvements under development before the Fukushima accident 
occurred. The Commission must be diligent about ensuring its 
licensees can focus on completing changes with greatest safety 
significance rather than being diverted onto other, less 
important changes simply to meet artificial timelines.
    Adequate protection is about risk reduction but should not 
be confused with ``risk elimination.'' Risk is inherent to all 
sources of energy, yet energy is necessary to our health and 
well being--to heat our homes, grow our food, and power our 
economy. With the Atomic Energy Act, Congress endeavored to 
balance the benefits nuclear energy brings to the general 
welfare with protection of public health and safety. Our goal 
as legislators and yours as regulators should be to preserve 
that balance.
    I want to thank all of the commissioners for coming here 
today to update the committee on the NRC activities, and I look 
forward to their testimony and willingness to answer our 
questions.
    And I would like to yield the balance of my time to my 
friend, Mr. Terry, from Nebraska.
    [The prepared statement of Mr. Shimkus follows:]
    [GRAPHIC] [TIFF OMITTED] T2625.001
    
    [GRAPHIC] [TIFF OMITTED] T2625.002
    
   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing. As you may be aware, I introduced 
legislation in December of last year in response to many of the 
concerns that were being raised at the Nuclear Regulatory 
Commission, and the IG reports confirmed those concerns.
    I want to welcome the new chair of the Commission and relay 
that it is my sincere hope that we can work together. I wanted 
to also stress that the NRC has been known throughout the world 
as a premier regulatory agency that has been known to work 
together. I hope we can restore the confidence that people once 
held with the NRC.
    Now, during my questions, I want to discuss aspects of my 
bill to get your feedback, particularly on the previous abuse 
of emergency powers and maybe setting those down in a more 
certain way.
    I yield back my time.
    Mr. Shimkus. The gentleman yields back his time.
    Does Mr. Barton want the remaining time?
    Then, the chair yields back his time now. And the chair 
recognizes the gentleman from Texas, Mr. Green, for 5 minutes.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing. And I want to welcome our commissioners back to our 
committee.
    Chairman Macfarlane, congratulations on your recent 
appointment. We are aware of the situations you inherited and I 
applaud your enthusiasm and willingness to address the 
governance issues head-on. I know some of my colleagues 
continue to have concerns about some of the actions initiated 
under the former Chairman Jaczko. I do hope that we can allow 
the new chair the opportunity to tackle some of these 
governance issues before making the assumptions on the NRC's 
work going forward. In the meantime, we should focus our 
committee oversight on ensuring safety and viability of our 
nuclear fleet.
    I am a long-term supporter of nuclear energy because it is 
a cleaner energy alternative. The President has said he 
supports investments in alternative forms of energy, and 
Secretary Chu has testified before this committee that we would 
be unable to meet the President's goals if we do not continue 
to invest in nuclear energy.
    With that, there is no doubt, though, that the issue of 
long-term and interim nuclear storage facility disposal needs 
to be dealt with and I do hope the Commission will seriously 
look at this issue in the near future.
    Again, thank each of you for being here. My hope is that 
today starts a new chapter in our committees' relationship with 
the NRC and I wish you all the luck in turning over a new leaf.
    With that, Mr. Chairman, I would like to yield the balance 
of my time to our ranking member of our full committee, Mr. 
Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much for yielding to me.
    I also want to begin by welcoming Dr. Allison Macfarlane 
and the other members of the Commission. I look forward to your 
testimony on the safety and security of America's nuclear power 
plants.
    The mission of the Nuclear Regulatory Commission is to 
license and regulate the Nation's civilian use of nuclear 
materials to ``ensure adequate protection of public health and 
safety, promote the common defense and security, and protect 
the environment.''
    This is a vital mission, but for the last year and a half, 
the Commission has been distracted from its responsibilities by 
politicians who second-guessed its decisions and sowed internal 
dissention. Regrettably, this committee helped fan the flames 
of discord within the Commission by looking for any opportunity 
to cast aspersions on the former chairman.
    It is time to move on with the four commissioners here 
today and the new chairman. We should focus on examining 
important nuclear safety issues, not rehashing old grudges.
    There is no shortage of issues to discuss, from the ongoing 
shutdown of the San Onofre Nuclear Generating Station in 
California due to safety concerns, to the status of NRC's post-
Fukushima review of nuclear power plant safety in the United 
States.
    It has been more than a year since the Fukushima nuclear 
accident in Japan. Japan's independent commission investigating 
the events leading up to the disaster recently concluded that 
the power plant operator and Japan's nuclear regulators failed 
to implement basic safety measures despite known risks posed by 
earthquakes, tsunamis, and other events that can cause long-
term blackouts at reactors. This is a cautionary tale for the 
United States, one that NRC should heed when implementing 
lessons learned from the Fukushima disaster.
    I look forward to the hearing. I thank the gentleman for 
yielding to me and I yield back the time to Mr. Green should he 
wish to use it.
    [The prepared statement of Mr. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T2625.003
    
    Mr. Green. Mr. Chairman, unless another member on our side 
wants the remainder of the minute--no one?
    I yield back my time.
    Mr. Shimkus. The gentleman yields back time.
    The chair recognizes the chairman of the Energy 
Subcommittee, Mr. Whitfield, for 5 minutes.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Thank you, Mr. Chairman. And I also want to 
welcome the commissioners from the NRC today and tell all of 
you how much we appreciate the important work that you do. We 
are all optimistic and hopeful that Chairwoman Macfarlane will 
make great improvements and restore the collegiality at the 
Commission. And we know that she has an impressive background 
in this area and look forward to working with her.
    All of us watched closely the events that surrounded the 
Fukushima situation, and when the Japanese Diet's Nuclear 
Accident Independent Investigation Commission reported that if 
Fukushima had been required to implement, for example, the 
``B.5.b'' order issued by the NRC following the 9/11 terrorist 
attacks on the U.S., ``that accident may have been 
preventable.''
    That same report also observed that Japanese plants were 
not required to consider a possible station blackout scenario, 
something that the NRC instituted in the 1980s. And last year, 
the NRC's Taskforce concluded that ``events like the Fukushima 
accident are unlikely to occur in the United States'' and that 
``continued operation and licensing activities do not pose an 
imminent risk to public health and safety.''
    We all were encouraged by that and I know that on March 9 
of this year, the NRC issued a series of orders without a 
rigorous cost-benefit analysis. I understand it was the 
Commission's collective judgment to proceed in that fashion due 
to the urgency of those high-priority issues and I don't think 
any of us disagree with that. But moving forward with the 
complicated and complex issues that you deal with, we do know 
that you will be striving and we hope that you will strive for 
a solid technical basis and rigorous cost-benefit analysis on 
any decision that is made.
    But once again, we look forward to your testimony and look 
forward to the opportunity to ask questions, and thank you for 
joining us.
    And I would yield the balance of my time to the chairman of 
the full committee, Mr. Upton.
    [The prepared statement of Mr. Whitfield follows:]
    [GRAPHIC] [TIFF OMITTED] T2625.004
    
    [GRAPHIC] [TIFF OMITTED] T2625.005
    
    [GRAPHIC] [TIFF OMITTED] T2625.006
    
   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you. And I thank both of you for holding 
this important and very timely hearing. I am pleased for the 
opportunity to personally relay the concerns that folks in 
southwest Michigan have regarding recent news reports of 
degraded performance of the Palisades nuclear plant in my 
district. I share those concerns and have raised them with 
Entergy officials. I understand they have made many management 
changes and have very detailed plans about how to restore their 
facility to the high level of safety that we, every one of us, 
expect. And while I am encouraged by their commitment to 
resolve the situation, I will continue monitoring this 
situation closely, working directly with the company, as well 
as the NRC, and I look forward to asking questions of the 
Commission on that issue.
    With regard to governance, Congress recognized in 1974 that 
one person should not be able to dictate what constitutes 
nuclear safety. They gave that responsibility to a commission 
of five people to consider complex issues collegially and in a 
manner that maximizes the benefit of nuclear technology while 
protecting the public. Collegiality is not just a buzzword; it 
is a critical safeguard against ill-considered policymaking by 
any single commission member.
    Following the Three Mile Island accident, Congress passed 
the Reorganization Plan of 1980 to address organizational 
weaknesses and clarify lines of authority. The Reorganization 
Plan shifted a certain amount of authority from the Commission 
to the chairman, and while that approach served the Nation well 
for nearly 30 years, we have now witnessed how one person, 
intent on expanding the limits of his authority, can undermine 
the Commission's effectiveness. I am relieved the Jaczko era is 
officially behind us, but flaws have been exposed at the 
Commission that still need to be addressed.
    As we have learned through our investigations and two IG 
reports, just a few of the former chairman's actions include: 
repeated attempts to influence or withhold agency staff 
information from the Commission; intimidation and bullying of 
commissioners and agency professionals creating a chilled work 
environment; and use of the Public Affairs Office to denigrate 
his colleagues and politicize and pressure commission policy 
positions.
    In all my years on this committee, I have never witnessed a 
situation like that during the past 3 years at the NRC. Last 
year, four commissioners took the unprecedented step of 
privately alerting the White House Chief of Staff to the 
untenable situation. Sadly, the President's response was to 
turn a blind eye while the four eminently qualified 
commissioners, whom he nominated, were all vilified by Chairman 
Jaczko's allies when their concerns became public. We must 
ensure history never repeats itself.
    I yield back.
    [The prepared statement of Mr. Upton follows:]
    [GRAPHIC] [TIFF OMITTED] T2625.007
    
    [GRAPHIC] [TIFF OMITTED] T2625.008
    
    Mr. Shimkus. The gentleman yields back his time.
    And again, I would like to welcome the commission members. 
And it is my understanding that the chairman will offer the 
opening statement for--oh, I am sorry.
    Without objection, I would like to recognize the ranking 
member of the Energy Subcommittee--I didn't know there were any 
other subcommittees other than mine, Bobby--for 5 minutes for 
your opening statement.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, and I want to 
thank again all of the NRC commissioners for your attendance 
here today. You certainly deserve all the accolades that we can 
give to you because of the hard work that you do and have 
continued to do, even under the former chairman.
    Dr. Macfarlane, I really want to thank you for being here 
and I want to welcome you. We look forward to your insightful 
and rigorous leadership, and we know that the genius is yet to 
appear, but it is here present with us and so I am so delighted 
that you are here before this committee and that you are the 
chairman of the NRC. So welcome.
    I look forward to hearing from you and I look forward to 
hearing your vision for the agency moving forward. And I look 
forward to hearing how you plan to work in concert with your 
fellow commissioners to ensure that the agency is conducting 
its work smoothly and without interruption.
    Mr. Chairman, for Illinois, our State, housing more nuclear 
reactors than any other State in the country, my constituents 
and yours want to be assured that the NRC has in place 
commonsense protocols for both mitigating risks of a nuclear 
disaster, as well as procedures to safeguard the public in the 
event that a disaster occurs. Specifically, I look forward to 
hearing more about the steps that the Commission has put in 
place to improve safety based on a huge amount of information 
we have learned following the events at Fukushima.
    It has now been over 16 months since the horrific disaster 
of last March, and in the past 12 months, there have been seven 
major reports on Fukushima, as well as numerous international 
IAEA and other international studies on the events that took 
place at Fukushima. The 30 plus NRC actions that were initially 
approved by the agency were based on a report that was drafted 
within 3 months of the Fukushima events and before any root 
cause or detailed timeline of events had been made public. And 
I am curious to know if the agency has assessed the list of NRC 
actions against the vast array of information to ensure that 
the NRC staff, and more importantly, the industry, are focused 
on the issues that were the cause and that are safety-
significant.
    Mr. Chairman, while I believe nuclear power must be a vital 
part of our country's overall energy portfolio, we must ensure 
that we have the best systems and practices in place to 
safeguard against an unforeseen nuclear accident to prevent 
widespread disaster like what we witnessed last March in Japan. 
My constituents in the 1st District and in Illinois, as well as 
the larger American public expect us to address these pressing 
issues, so I look forward to hearing from the commissioners 
today.
    One other matter, Mr. Chairman, on another significant 
note, I also look forward to hearing more about the NRC's work 
in supporting the engineering departments of HBCUs, 
historically black colleges and universities, as reported in 
the magazine ``U.S. Black Engineer and Information 
Technology.'' Supporting STEM education is a top priority for 
me, and the NRC was recognized as one of the government 
agencies considered most supportive of the engineering 
departments of HBCUs, and I would like to hear more about your 
work in that particular area.
    So I look forward to hearing more about this work, more in 
depth about all your activities.
    And Mr. Chairman, with that, I yield back 9 seconds.
    Mr. Shimkus. The chair welcomes the ranking member for 
those 9 seconds.
    And now, I would like to recognize Chairman Macfarlane. 
Your full statement is in the record for the Commission, and 
then you are recognized for 5 minutes, and we will be very 
generous, so don't feel rushed. And then I think it is our 
understanding that we will give the other members of the 
Commission an opportunity for 5 minutes for an opening 
statement.
    With that, the chair recognizes the chairman of the NRC, 
Honorable Macfarlane.

    STATEMENTS OF ALLISON M. MACFARLANE, CHAIRMAN, NUCLEAR 
  REGULATORY COMMISSION; KRISTINE L. SVINICKI, COMMISSIONER, 
     NUCLEAR REGULATORY COMMISSION; WILLIAM D. MAGWOOD IV, 
  COMMISSIONER, NUCLEAR REGULATORY COMMISSION; AND WILLIAM C. 
    OSTENDORFF, COMMISSIONER, NUCLEAR REGULATORY COMMISSION

               STATEMENT OF ALLISON M. MACFARLANE

    Ms. Macfarlane. Thank you very much.
    Chairmen Whitfield and Shimkus, Ranking Members Rush and 
Green, and members of the subcommittees, I am honored to be 
here before you today in my first congressional appearance as 
chairman of the U.S. Nuclear Regulatory Commission.
    I am pleased to join my fellow commissioners to discuss the 
critical policy issues facing our agency. I have had the 
opportunity and privilege to begin working with Commissioners 
Svinicki, Apostolakis, Magwood, and Ostendorff. They are all 
talented professionals with a rich and diverse set of 
experiences. I am looking forward to collaborating with them 
and forming a collegial relationship and service to the country 
and the mission of the agency.
    I would like to take a moment to address my leadership 
style and the approach I will take as chairman. I have already 
begun to reach out to my fellow commissioners to lay the 
groundwork for a strong working relationship, and I look 
forward to seeking and receiving their advice on consequential 
matters facing the agency. I am committed to maintaining open 
lines of communication and a respect for their views and best 
judgment. I believe that by working together collegially, the 
product of our efforts as a commission will be stronger and 
more protective of the public interest.
    To execute their responsibilities effectively, my 
colleagues must have access to unfettered and timely 
information, and I will ensure that they are fully and 
currently informed.
    One of my responsibilities is to ensure that the 
Commission's policy direction is being carried out in the most 
effective and efficient manner to support the mission. While 
the commitment and capability of the executive director of 
operations and his senior management team is impressive, the 
chairman must be in the position to monitor staff performance 
and verify that mission responsibilities are being met 
effectively. I look forward to working with the EDO to find the 
right balance between our respective roles.
    Finally, I embrace the NRC's organizational values that are 
intended to guide every action taken by agency personnel. These 
values are integrity, service, openness, commitment, 
cooperation, excellence, and respect. I support the commitment 
to an open, collaborative work environment that encourages all 
employees and contractors to promptly speak up and share 
concerns and differing views without fear of negative 
consequences. I believe these values are worthy of highlighting 
as we reinforce our agency's focus on its critical mission of 
safeguarding the public's health, safety, and security and 
protecting the environment.
    This is especially valuable at a time when the agency is 
dealing with a wide array of critical safety matters. We 
continue to focus on implementing the important lessons learned 
from the Fukushima Dai-ichi accident. The NRC continues to 
believe that our Nation's nuclear fleet is safe and not facing 
imminent risk from a similar accident. However, the Fukushima 
disaster clearly offers lessons to be learned.
    I look forward in this context to working with my 
colleagues to establish safety measures derived from the 
recommendations by the NRC Near-Term Task Force. The staff has 
prioritized these recommendations into three tiers. In March, 
the Commission approved the first tier of actions for the staff 
to issue as immediately enforceable orders. We also issued 
requests for information to our licensees to help inform the 
staff as we proceed in developing the Tiers 2 and 3 measures. 
This is a substantial amount of progress in a short time, and 
the Commission looks forward to continuing to work with the 
staff to address remaining Fukushima-related lessons.
    In addition, the NRC has made significant strides in 
several other areas this year. We issued the first two new 
reactor licenses in over 30 years--the Vogtle site in Georgia 
and the Summer site in South Carolina. We also authorized a new 
design certification for the AP-1000 reactor, four new uranium 
recovery licenses, and a license for the AREVA Eagle Rock 
centrifuge enrichment facility. We anticipate more applications 
and decisions being made in the next few years in all these 
areas.
    With all these new developments, the NRC continues its 
responsibility for making the safety and security of our 
current operating nuclear fleet by performing thousands of 
hours of inspections at plants and material sites. On the 
whole, our Nation's nuclear power plants have performed well, 
and where issues have arisen, the agency has moved 
expeditiously to resolve any problems.
    We are always working to bring transparency to our 
operations and maintain strong relationships with our 
stakeholders and the public. It is these accomplishments that 
demonstrate time and again the level of professionalism among 
the NRC staff. I am proud to be a part of this agency and I 
look forward to working with my fellow commissioners and the 
staff in the coming months.
    Thank you for this opportunity to appear before you today. 
I am happy to answer any of your questions.
    [The prepared statement of Ms. Macfarlane follows:]
    [GRAPHIC] [TIFF OMITTED] T2625.009
    
    [GRAPHIC] [TIFF OMITTED] T2625.010
    
    [GRAPHIC] [TIFF OMITTED] T2625.011
    
    [GRAPHIC] [TIFF OMITTED] T2625.012
    
    [GRAPHIC] [TIFF OMITTED] T2625.013
    
    [GRAPHIC] [TIFF OMITTED] T2625.014
    
    [GRAPHIC] [TIFF OMITTED] T2625.015
    
    [GRAPHIC] [TIFF OMITTED] T2625.016
    
    [GRAPHIC] [TIFF OMITTED] T2625.017
    
    [GRAPHIC] [TIFF OMITTED] T2625.018
    
    Mr. Shimkus. Thank you, Chairman. Right on the button on 5 
minutes, so you were well prepared. So that is a good first 
start.
    The chair now recognizes Commissioner Svinicki. You are 
recognized for 5 minutes.

               STATEMENT OF KRISTINE L. SVINICKI

    Ms. Svinicki. Thank you, Chairman Shimkus, Ranking Member 
Green, Chairman Whitfield, Ranking Member Rush, and members of 
the subcommittees for the opportunity to appear before you 
today at this oversight hearing to examine NRC policy and 
governance.
    I would like to begin by recognizing the early commitment 
of the Commission's new chairman, Dr. Allison Macfarlane, to 
forge a collegial relationship with each member of the 
Commission, which began even prior to her swearing in earlier 
this month and has continued since that time. I am appreciative 
of her reaching out to me, our fellow commissioners, and 
members of the NRC Senior Executive Service and staff. The tone 
she is setting is constructive and is a most welcomed 
opportunity to move forward in a positive manner.
    Having joined the Commission in March of 2008, I arrived at 
an agency whose regulatory program is regarded as among the 
most informed and disciplined in the world. I am grateful to 
President Obama for having nominated me this year to serve a 
second term on the Commission. Having been confirmed just last 
month, I continue to pledge my efforts to advance the NRC's 
important work during this new term of service.
    The tragic events in Japan in 2011 cast the NRC's work into 
even sharper relief for the American public. Nuclear technology 
is unique and its use demands an unwavering commitment to 
safety principles. This past March, the NRC issued a series of 
orders to nuclear power plant licensees requiring features to 
mitigate beyond design-basis extreme natural events, the 
installation of hardened venting systems at some plants, and 
enhanced spent fuel pool instrumentation. The NRC is also 
requiring nuclear power plant licensees to undertake 
substantial reevaluations of seismic and flooding hazards at 
their sites.
    The NRC continues to develop and communicate the specific 
guidance for implementing these actions with input from nuclear 
operators, nuclear safety, and environmental interest groups, 
and other members of the public. This work is carried out 
through the committed efforts of the women and men of the NRC 
in advancing the NRC's mission of ensuring adequate protection 
of public health and safety and promoting the common defense 
and security.
    I would like to convey publicly my gratitude to the NRC 
staff for the work they do and for assisting my efforts to 
advance our shared goals.
    Chairman Whitfield, Ranking Member Rush, Chairman Shimkus, 
Ranking Member Green, and members of the subcommittees, I 
appreciate the opportunity to appear today and look forward to 
your questions. Thank you.
    Mr. Shimkus. Thank you. The chair now recognizes 
Commissioner Magwood, sir, for 5 minutes.

               STATEMENT OF WILLIAM D. MAGWOOD IV

    Mr. Magwood. Thank you. Chairmen Whitfield and Shimkus, 
Ranking Members Rush and Green, members of the subcommittees, 
it is a pleasure to be before you today to discuss the work of 
the Nuclear Regulatory Commission.
    During the 2 \1/2\ years I have served on this commission, 
we have been faced with historic challenges and significant 
change. We have authorized electric utilities to begin 
construction on the first new nuclear power plants since the 
1970s. We have also licensed the construction and operation of 
the first uranium enrichment facilities in this country not 
constructed by the government. At the same time, we have also 
seen troubling errors in the application of radioactive sources 
for medical treatment at the Philadelphia Veterans' Affairs 
Medical Center, and in the last year, we responded as nuclear 
power plants were rocked by earthquakes, threatened by 
floodwaters, buffeted by hurricanes and tornadoes.
    In a very real sense, the key attribute of a safety 
regulator is the ability to process experience into learning 
and learning into action. All these events and many others 
provide us lessons that must be learned and applied to make us 
a better regulator. Fortunately, in my experience, the NRC has 
proven to be extraordinary in its ability to learn from 
experience and find practical ways of assuring safety.
    For this current Commission, the greatest challenges we 
face arise from the urgent need to continue to learn from the 
lessons of the tragedy in Japan at the Fukushima Dai-ichi 
plant. The Commission has already unanimously approved a set of 
high-priority initiatives that are designed to enhance the 
defense in depth at U.S. plants and enable operators to respond 
more effective to beyond design-basis events.
    We still have much work to do but the steps taken thus far 
represent a very significant increase in safety based on the 
Fukushima experience. While the technical and regulatory 
lessons are important, it is my observation that the greatest 
lesson Fukushima holds for any safety regulator is the fleeting 
nature of credibility. A regulator who loses credibility and 
public trust is a regulator that has failed its mission. If a 
regulator is not seen as truthful, credible, and reliable with 
a clear focus on the health and safety of the public, it cannot 
function nor can the nuclear facilities under its oversight. 
Those who question this need only observe the tens of thousands 
of Japanese citizens who marched in Tokyo this past weekend.
    It is in that respect that I welcome Chairman Macfarlane to 
this commission. I look forward to working with her to assure 
that the NRC continues its long tradition of technical 
excellence, veracity, and credibility. In the very short time 
she has been with us, I believe she is off to an excellent 
start.
    This commission and the agency as a whole will face many 
difficult impactful decisions in the coming weeks and months. 
It does not overstate the matter to tell you that these 
decisions could determine the future shape of nuclear 
regulation in this country for many years to come. I look 
forward to working with my colleagues on the Commission, our 
many stakeholders, and with your subcommittees as we address 
the challenges ahead.
    I look forward to today's discussion and look forward to 
your questions. Thank you.
    Mr. Shimkus. Thank you.
    Now, I would like to recognize Commissioner Ostendorff. And 
before that, it is important for me to use the bully pulpit to 
make sure that I put on record, beat Navy. We have priorities 
here in this country, and that Army-Navy rivalry is one of the 
biggest.
    So before you start, beat Navy. And you are recognized for 
5 minutes.

               STATEMENT OF WILLIAM C. OSTENDORFF

    Mr. Ostendorff. Chairman, I must call to your attention the 
record of the past decade. But I have a son who served as an 
Army officer, did two combat tours in Iraq and was there in a 
very busy time period, so I have a very soft spot in my heart 
for the Army.
    Chairman Shimkus, Ranking Member Green, Chairman Whitfield, 
Ranking Member Rush, members of the committee, I appreciate the 
chance to be here before you today. It has been a little bit 
over a year since I had the opportunity to appear before this 
committee.
    Last July, the NRC Fukushima Task Force concluded that a 
sequence of events in the United States similar to that 
experienced in Japan is unlikely. The task force also 
significantly concluded that there is no imminent risk from 
continued operation of U.S. nuclear power plants. I firmly 
believe those conclusions offered in July of last year remain 
true and solid today. Nevertheless, I continue to support the 
NRC in its efforts to strengthen our regulatory framework where 
appropriate in response to Fukushima.
    Along with my colleagues at this table, I commend the NRC's 
dedicated staff of professionals. I also appreciate the work of 
my colleagues at this table.
    Earlier this year, along with my other colleagues, I voted 
to approve the issuance of three orders associated with 
Fukushima actions. Orders related to acts of mitigation 
strategies, containment vent systems, and spent fuel pool 
instrumentation based on lessons learned from Fukushima. I 
continue to support the information-gathering and analysis 
necessary to take additional actions as appropriate to enhance 
safety. We need to continue to pursue these efforts in a 
prioritized, thoughtful manner.
    But even as we dedicate resources to implementing the 
recommendations and lessons learned from Fukushima, the 
Commission and our staff continue to be successful in 
performing our other vital work. Effective safety oversight of 
reactor materials licensees remains our preeminent goal.
    And as mentioned by colleagues to my right, earlier this 
year in February and March, we issued the first new reactor 
licenses for construction and operation at the Vogtle and 
Summer plants. I note that the additional Fukushima-related 
requirements that came from the Commission were imposed in 
these new construction reactors. I had the chance to witness 
the construction of these two sites just 2 weeks ago, and I am 
encouraged by the progress that I saw.
    Finally, I join my colleagues in warmly welcoming Dr. 
Macfarlane to the Commission. I fully expect that the 
collegiality and effectiveness of the Commission will benefit 
from her new leadership. And I state with great confidence 
today that she is off to a very strong start as chairman.
    I appreciate this committee's oversight role and I look 
forward to your questions. Thank you.
    Mr. Shimkus. Thank you.
    Now, I recognize myself for 5 minutes for the first opening 
round of questions.
    This is to the Commission as a whole. My district is home 
to Honeywell's uranium conversion plant. It is the only one of 
its kind in the U.S. This past May, the NRC reconfirmed as part 
of a performance review that the plant is operating safely. Two 
months later, Honeywell is in the process of laying off 228 
employees due to a prolonged shutdown to address recently 
discovered seismic issues. I am concerned for both the safety 
of the nearby residents but also for the livelihoods of those 
employees. What I am struggling to understand is this: was the 
NRC correct in May when they indicated the plant is safe? If 
so, then shouldn't there be a way to make safety improvements 
while minimizing the disruption to the plant's operation and 
the lives of the employees? Chairman?
    Ms. Macfarlane. Thank you for that question, Chairman.
    You will have to bear with me. I have been on the job 2 
weeks and I am struggling to understand all of the different 
issues that are before us. But I am familiar with the Honeywell 
issue and I am familiar with the fact that the order, the 
confirmatory action letter that was issued to the Honeywell 
plant came out of Fukushima-related inspections. And that is my 
current understanding of the situation. So it was perhaps 
separate from what you are talking about.
    Mr. Shimkus. Commissioner Svinicki?
    Ms. Svinicki. Chairman, as Chairman Macfarlane indicated, 
the NRC did order some additional in-depth inspections at 
facilities, including fuel-cycle facilities at Honeywell after 
the events in Fukushima. As a result of that, there were 
indications that the amount of material that could 
hypothetically be released in a seismic event had been 
underestimated previously, and that is under further analysis 
by both Honeywell as the operator and the NRC staff at this 
time. There is the potential for facility modifications to be 
needed and my understanding is that the issue of what measures 
might be needed is under very active analysis right now.
    Mr. Shimkus. So just a brief follow-up. So you are saying 
that the May analysis may not have been correct and you are not 
attributing that to Fukushima changes?
    Ms. Svinicki. My understanding is that the situation that 
the facility is in right now is an outgrowth of the more in-
depth Fukushima-related inspection but it is against the 
current design basis of the facility.
    The question of whether or not this could have been 
discovered previously is a very complex one, Congressman, and I 
think we owe you, as we complete our analysis, a further answer 
on that.
    Mr. Shimkus. Yes. And more to the 228 employees who no 
longer have employment right now.
    Commissioner Magwood?
    Mr. Magwood. Yes, I think both of my colleagues have given 
you a very good summary of the situation. The only thing I 
would add is that a portion of the difficulty we face with the 
Honeywell facility is that it is a very old facility that 
actually predates some of our regulatory structure. And while 
we have a lot of certainty that it is being operated safely, 
some of the criteria that one might apply today were not 
available when this plant was first built. So, for example, 
there are no criteria guiding whether the buildings housing the 
process facilities should have any earthquake resistance, for 
example. We don't have that requirement in place for this 
facility. But what we do have in place is a requirement that in 
the event of a credible accident that the public be protected.
    And as Commission Svinicki pointed out, in the analysis to 
decide whether the public is protected, you have to make an 
assumption as to how much material could possibly be released, 
and that appears to have been an error made in the process to 
determine how much could have been released. We now believe 
much more could be released than had been previously assumed, 
and that is why this change has been----
    Mr. Shimkus. Yes, let me reclaim my time because I have got 
3 and I am only going to get one question in.
    So let me to go a quote by you, Commissioner Magwood, that 
said, ``it does not, as a general matter, advance the cause of 
safety to inundate licensee staff with multiple actions when a 
more thoughtful process might achieve the agency's safety goals 
without straining licensee resources.'' And this is the issue 
about the additional work, time, effort, energy that might take 
people off the prize of the real concerns on safety. What are 
your comments to that? That is your comment, Commissioner 
Magwood. Why don't you follow up on that?
    Mr. Magwood. Well, just very briefly and give others a 
chance to comment. My belief is that it is very important 
whenever we take a regulatory action that it be done in a 
prioritized fashion. Obviously, every facility is very 
different, and we should have an approach that recognizes that 
what may be a threat to one facility may be a much lesser 
threat to a second facility. And then as we are approaching our 
regulatory implementation, we ought to take that into 
consideration.
    Mr. Shimkus. Does everyone generally agree with that 
analysis? And I see everyone shaking their head yes, and we 
appreciate that.
    With that, my time is expired. Chair recognizes the ranking 
member, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    On June the 8th, the U.S. Court of Appeals in DC Circuit 
Court called NRC's evaluation of the risk of spent nuclear fuel 
deficient, noting the Commission did not examine the 
environmental impact, the impacts of failing to license a 
permanent repository, or environmental risk. The court 
instructed the NRC to perform a detailed evaluation and 
possible risk posed by the extent of storage pools in reactor 
sites such as leaks and fires or explain why such an evaluation 
is not needed.
    When do you plan to start this evaluation? And what do you 
expect it to look like?
    Ms. Macfarlane. We are in the process of considering 
various options of what to do with waste confidence decisions 
right now, and these options are being vetted. And I can't say 
more because the issue is an active adjudicatory matter.
    Mr. Green. Do you have any idea on a time frame?
    Ms. Macfarlane. We are going to be working part of this 
right now, immediately.
    Mr. Green. OK. On June the 18th, the NRC received a 
petition to suspend final decisions on all pending reactor 
licensing proceedings pending revisions to be remanded about 
the Waste Confidence Rule. In its response, NRC stated, ``the 
commission staff agrees that no final decision to grant a 
combined license, operating license, or renewed operating 
license is to be made until the NRC has appropriately disposed 
of the issues remanded by court.'' Is it true that you will not 
make any final decision on a license until you have addressed 
the problems with the Waste Confidence Rule?
    Ms. Macfarlane. Again, I believe this is an adjudicatory 
matter and we can't say more until we have taken a vote.
    Mr. Green. OK. In the 16 months since the nuclear accidents 
in Japan, there has been a vast amount of information published 
about the event, the causes, the action taken by the global 
nuclear energy industry. With the benefit of this information, 
have your initial conclusions on the cause of accidents or the 
priority of the regulatory actions associated with Fukushima 
changed?
    Ms. Svinicki. Congressman Green, the NRC staff remains very 
cognizant of those international reports as they are issued and 
they do have the potential to further inform our response in 
the United States to Fukushima. So I would characterize to you 
that we stay very engaged in reviewing those results and want 
to have the most risk-informed process that we can to respond 
to Fukushima going forward.
    Mr. Green. You know, our concern is we want to make sure--
it was a terrible tragedy in Japan. We just want to make sure 
we don't reinvent the wheel, that we see what the problem was 
there.
    You issued three orders and a request for information on 
flooding, seismic and emergency preparedness in March. Based on 
the information that is available in the past 12 months, are 
there any other areas where orders may be necessary?
    Ms. Macfarlane. I believe this is to be decided. We are 
working through the different tier activities, and as we get to 
Tier 2 and Tier 3 activities, we may decide on new orders.
    I invite my colleagues to comment.
    Ms. Svinicki. I would just add that the orders that you 
described were considered by the Commission and the NRC staff 
to be those that provided the greatest potential for risk 
reduction, so they were the highest priority items.
    Mr. Ostendorff. I wanted to add, Congressman, to echo 
Commissioner Svinicki's comments that not all of these 
recommendations from the task force are of equal safety 
significance. There are some that are more urgent, some less 
urgent, and some that still need to be studied. And I will just 
tell you from where we sit, a year and 4 months after 
Fukushima, I think the thoughtful prioritized approach that the 
agency has taken as a result of the staff's recommendations has 
been very supportive of safety.
    Mr. Green. So there are other orders being looked at, just 
not the higher priority that these three orders, is that 
correct? If you will say yes so the mike can pick it up.
    Mr. Ostendorff. Well, I would say that we are still 
reviewing. As Chairman Macfarlane mentioned, there is a Tier 1 
set of issues, the highest priority. We are still evaluating 
recommendations on Tier 2 and Tier 3.
    Mr. Green. There are a number of recent reports and 
articles critical of the Japanese nuclear industry and 
government emergency preparedness plans and activities. Are 
there differences between our regulatory requirements and those 
of Japan with respect to emergency preparedness than those of 
Japan?
    Mr. Magwood. Yes, actually, there are very significant 
differences in our approaches. For example, in the United 
States, each nuclear plant is required to perform a full-scale 
emergency planning exercise once every 2 years. That 
requirement doesn't exist in Japan. And so we practice 
emergency planning very rigorously. It is a very important part 
of our defense-in-depth. And I think this is something that in 
Japan they are giving a lot of careful thought to today.
    Mr. Green. Mr. Chairman, I know I am almost out of time. A 
number support expansion of nuclear power. There is lots of 
things in the market--low-price natural gas, lots of other 
issues--but if we are going to deal with long-term, we need to 
have some transparency, which the chair talked about, but also 
some guidelines so the industry can have some certainty to make 
sure they go forward.
    Mr. Chairman, I thank you for my time.
    Mr. Shimkus. And the gentleman yields back his time.
    The chair now recognizes the chairman of the Energy 
Subcommittee, Mr. Whitfield, for 5 minutes.
    Mr. Whitfield. Thank you, Mr. Chairman.
    And thank you all for your testimony.
    As you know, the U.S. is still struggling to rebuild its 
economy and to lower unemployment, and energy is always a key 
component in our ability to compete in the global marketplace. 
And of course, cost is a factor that we always look at, the 
cost of producing energy. Regulations certainly affect cost. 
And I talked about in my opening statement how the Japanese 
Diet's investigation really was quite complimentary of the U.S. 
regulatory system because we had put in place certain safety 
safeguards that certainly Japan did not have. And as Mr. 
Ostendorff mentioned, you all adopted three emergency orders 
last summer. And it is my understanding that it is not required 
that you do a cost-benefit analysis and it is not required that 
you do some sort of a technical basis, rationalization for the 
decision. And I am assuming that in those three orders there 
was not a cost-benefit analysis or a technical analysis. Is 
that correct?
    Ms. Macfarlane. That is correct. Two of them were deemed 
adequate protection issues and one was given an exemption.
    Mr. Whitfield. Two were--I am sorry?
    Ms. Macfarlane. Deemed adequate protection issues.
    Mr. Whitfield. OK.
    Ms. Macfarlane. I will let my colleagues expand on that.
    Mr. Whitfield. Well, then, Chairman Macfarlane and each of 
the commissioners, let me ask this question. I know you are 
looking at different tiers now, Tier 2, Tier 3, Tier 4, or 
there may be additional orders for post-Fukushima safety 
improvements. Do you believe that any future post-Fukushima 
actions--it would be beneficial to have a rigorous technical 
basis and a cost-benefit analysis?
    Ms. Macfarlane. I believe we have to consider all potential 
actions on their own merits as they come through, and we will 
decide at that time whether they are an adequate protection 
issue or not. And, you know, it depends. There is a lot of 
information we need to gather and examine about each of these 
different issues in the different tiers.
    Mr. Whitfield. Ms. Svinicki, do you----
    Ms. Svinicki. Chairman Whitfield, I don't disagree with 
Chairman Macfarlane that each regulatory action will be 
assessed based on the circumstances, but as a general matter, 
in a number of my votes on the NRC's post-Fukushima actions, I 
have indicated that after the highest priority potential risk 
reductions are taken such as the three orders we just issued, 
that it is my personal view that we need to begin to return to 
the disciplined cost-benefit analysis because the subsequent 
and follow-on actions will likely not have the potential to 
achieve as significant of a risk reduction. Therefore, I 
believe moving back into our back-fit rule and our cost-benefit 
evaluation is appropriate for that reason.
    Mr. Whitfield. Mr. Magwood?
    Mr. Magwood. To some degree I agree with both of my 
colleagues on this because I do think that most of the actions 
that may follow should undergo a more rigorous analysis. But I 
also think that there may be some actions that are in the Tier 
2 and Tier 3 category that are adequate protection issues and 
ought not to go through that evaluation. So I agree with 
Chairman Macfarlane's statement that we should look at each on 
one an individual basis and make a judgment as we go.
    Mr. Whitfield. Mr. Ostendorff?
    Mr. Ostendorff. Chairman Whitfield, I would just add that I 
think the commission members here at this table that have been 
voting in these matters, my two colleagues to the right and 
Commissioner Apostolakis, who is not here, have very clearly 
stated in our voting record on Fukushima issues that we need a 
technical analysis to underpin any recommendations for taking 
action. And I think our staff has done that.
    Mr. Whitfield. OK. Well, thank you very much.
    And I yield back the balance of my time.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes my colleague from Illinois, Mr. 
Rush, for 5 minutes.
    Mr. Rush. Mr. Chairman, back in May, my office was notified 
that the NRC was recently honored by U.S. Black Engineering 
Information Technology Magazine as one of the government 
agencies considered most supportive of the engineering 
departments of historically black colleges and universities. 
The survey was a result of a poll among deans of accredited 
HBCU engineering programs and corporate-academic alliance 
Advancing Minority Interests in Engineering, which is its name, 
the Alliance's name. Supporting STEM education and especially 
for minorities and women is one of my top educational 
priorities.
    I would like to hear more about some of these programs that 
the NRC has been involved in in this particular area. So I 
would ask if any of you could discuss some of the agency's work 
in supporting the HBCUs' engineering program. And can my office 
be of assistance? And how can we be of assistance especially in 
areas of recruiting in STEM areas? We know that future 
scientists and engineers of tomorrow, a lot of them could and 
should come from HBCUs. So just take a moment. I am aware of 
the time and I do have some other questions. So please be as 
brief as you possibly can.
    Ms. Macfarlane. Let me just say that in fiscal year 2011, 
the Minority Servicing Institutions Grants Program issued 26 
grants, of which 15 were awarded to historically black colleges 
and universities and totaled over $1 million. And the program 
funded approximately $737,000 in stipends through the Research 
Participation Program. And as you noted, the NRC has been 
recognized as a top supporter based on a survey of deans from 
engineering schools for 4 consecutive years.
    Mr. Rush. Would you send myself, my office, and anyone else 
on the subcommittees the information in writing on that?
    Ms. Macfarlane. Absolutely, happy to.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2625.019
    
    [GRAPHIC] [TIFF OMITTED] T2625.020
    
    Mr. Rush. Thank you very much.
    In the 16 months since the nuclear accidents in Japan, 
there has been a vast amount of information published about the 
event, the causes and actions taken by the local nuclear 
industry. With the benefit of this information, have your 
initial conclusions on the cause of the accidents or on the 
priority of the regulatory actions associated with Fukushima 
changed? What are the top five most important actions being 
taken by the NRC staff and industry to improve safety based on 
the huge amount of information surrounding Fukushima?
    Ms. Macfarlane. Well, we have issued three orders and as 
well as some requests for information from our licensees. Those 
are the first actions that the NRC has done and now we are 
working through Tier 2 and Tier 3 activities.
    Mr. Rush. The 30 plus NRC actions that were approved by the 
NRC were based on a report that was drafted within 3 months of 
the accident and before any root cause or detailed timeline of 
events had been made public. Have you assessed the list of NRC 
actions against this vast array of information to ensure that 
the NRC staff and the industry are focused on issues that were 
the cause and that are safety-significant?
    Ms. Macfarlane. The staff is working very hard to 
understand the full suite of information available out there. 
They are keeping abreast of it and keeping up with their 
colleagues in other countries.
    And I invite my other colleagues to comment as well.
    Mr. Ostendorff. I would add, Ranking Member Rush, that I am 
going to simplify this a little bit. I think there are two main 
categories of Tier 1 actions that our staff has been working 
diligently to look at. One is the protection against external 
events such as a seismic event or flooding. And the second is, 
what are the mitigation strategies if you have an accident, for 
instance, if you have a loss of all power onsite? So those two 
high-level mitigation strategies and the protection against 
external events I think are the top two categories of all the 
myriad recommendations that came out of the task force. Those 
are the ones that are getting the highest priority.
    Mr. Shimkus. The gentleman's time is expired.
    Mr. Rush. Thank you, Mr. Chairman.
    Mr. Shimkus. I recognize the chairman of the full 
committee, Mr. Upton, for 5 minutes.
    Mr. Upton. Thank you, Mr. Chairman.
    And I want to just reiterate to Chairman Macfarlane I do 
welcome some of your comments on your new role and I look 
forward to sitting down with you and getting to know you 
certainly a lot better in the weeks and months ahead and 
ensuring that we have a solid relationship. You have a very 
important job and we want to make sure that you have the 
resources to do your job and you do it in a very efficient way. 
And we are all pulling for you.
    Commissioner Ostendorff, as you know the Palisades plant in 
my district is in Column 3 of the NRC's Reactor Oversight 
Program. Would you briefly describe for us what that means and 
what actions the NRC generally takes for plants in that column?
    Mr. Ostendorff. Yes, sir. We have a reactor oversight 
process that goes from Column 1, which is the best operating 
plant, all the way down to Column 5, which is the worst 
operating plant status. And as a plant has more problems, there 
is increased oversight that occurs by the NRC staff at that 
plant. Currently, Palisades is in Column 3, which is basically 
the result of a substantial safety significance finding dealing 
with inadequate work instructions associated with DC power 
supplies that led to reactor scram and reactor trip. That was 
also accompanied by what is called a ``White'' finding of low 
to moderate safety significance that was associated with a 
service water pump coupling failure. As a result of those two 
items, Palisades is in this Column 3. It is the degraded 
cornerstone column. There is increased oversight. We expect our 
NRC team to be looking with the licensee at their corrective 
action program and the licensee's assessment of where their 
problems are. And we expect the next NRC close look at this to 
be coming sometime probably in September of this year.
    Mr. Upton. So is it your understanding and belief that 
Entergy and the owners, the operators of this facility, that 
they are taking all the right actions at this point?
    Mr. Ostendorff. I think the final determination of that, 
Congressman, remains to be seen. I think so far Entergy has 
been communicating well with the NRC staff about what they are 
doing. Entergy on their own commissioned an external group to 
come in and do a safety culture assessment earlier this year. 
That has been reviewed by the NRC staff. Following inspection 
in September we will look at those details of the safety 
culture assessment.
    Mr. Upton. So in September you will review all this 
information and at that point would it be possible to make a 
determination to move them back to Column 2 or not?
    Mr. Ostendorff. We go through an annual assessment process 
led by our executive director for operations, Bill Borchardt, 
and Bill is in the back row behind us here. And that is on an 
annual cycle that goes through--I am not sure exactly what the 
cycle is but typically those determinations are made in the 
spring, early summertime period. So I can't tell you exactly 
when a determination might be made as to whether or not that 
plant should or should not remain in Column 3.
    Mr. Upton. And you will literally have that information--
you will be able to make that determination come September?
    Mr. Ostendorff. Well, there would be a certain aspect that 
will be looked at September. This is the safety culture aspects 
that are believed to be part of the root cause, some of the 
concerns of that plant.
    Mr. Upton. And you will be sharing that with us I am sure.
    Mr. Ostendorff. Yes, sir.
    Mr. Upton. And last question, is that early September?
    Mr. Ostendorff. I don't have a specific date for that. We 
can get back to you if we have some more information about it.
    Mr. Upton. Thank you. I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the chairman emeritus, Mr. 
Dingell, for 5 minutes.
    Mr. Dingell. Mr. Chairman, I thank you for your courtesy.
    These questions to Chairman Macfarlane. Madam Chairman, I 
have heard concerns related to the Part 52 licensing process 
for new facilities. It is my understanding that this process is 
intended to provide both a construction and an operating 
license through the same review and to streamline the previous 
Part 50 process. When the first round of Part 52 license 
applications came into the NRC in 2007 and 8, the stated goal 
by NRC was to complete these reviews in 36 months. Since that 
time, the time has been raised to 42 to 48 months. And now it 
seems that many are headed for 60-month review. This is 
occurring even as there are less applications in the review 
pipeline. My question to you, Madam Chairman, is the NRC 
committed to completing these reviews in an expedited manner? 
Yes or no?
    Ms. Macfarlane. The NRC is committed to completing these 
reviews as efficiently as possible.
    Mr. Dingell. Thank you.
    Now, there has been frustration on the slowness of the 
relicensing process. Is the NRC committed to complete these 
relicensing reviews in an expedited manner? Please answer yes 
or no.
    Ms. Macfarlane. The NRC is committed to completing these 
relicensing reviews as efficiently as possible.
    Mr. Dingell. Thank you. Now, Madam Chairman, you were a 
member of the Blue Ribbon Commission that recommended working 
with the communities who might volunteer for a single waste 
storage site. How long would such a process take to finalize?
    Ms. Macfarlane. It is totally uncertain. It could take a 
few years or it could take decades. It entirely depends on the 
situation.
    Mr. Dingell. I am very little comforted but I think that is 
a fair answer.
    Madam Chairman, can you tell us what would be the cost of 
this exercise?
    Ms. Macfarlane. The costs of working with the community?
    Mr. Dingell. Yes.
    Ms. Macfarlane. It entirely depends.
    Mr. Dingell. To finalize the process.
    Ms. Macfarlane. Again, it entirely depends, and it depends 
also in part on how much compensation is decided for the 
community and in what form that compensation would be.
    Mr. Dingell. Thank you, Madam Chairman.
    Now, under current law, how many sites are authorized to be 
evaluated and licensed as a single storage site?
    Ms. Macfarlane. One.
    Mr. Dingell. One. Now, does the NRC currently have the 
funding to move forward to evaluate and license the Yucca 
Mountain facility? Yes or no?
    Ms. Macfarlane. My understanding is that there is some 
funding available----
    Mr. Dingell. I am sorry?
    Ms. Macfarlane [continuing]. To complete the license--my 
understanding is there is some funding available to complete 
the license review.
    Mr. Dingell. Some. Enough to complete the action?
    Ms. Macfarlane. That I am not completely certain, and I 
would invite my colleagues to----
    Mr. Dingell. Could you give us an answer for the record 
later or is----
    Ms. Macfarlane. Yes, certainly. Absolutely.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2625.021
    
    Mr. Dingell. All right, if you please.
    Now, in the audience today, I have constituents of mine who 
are studying nuclear science at the University of Michigan, 
which is an institution I have the honor of representing. In 
its fiscal year 2013 budget request, NRC stated that it is not 
requesting funding for the Integrated University Program, which 
historically has been the sole provider of critical funding for 
both student and faculty development in the field of nuclear 
science. NRC states that this reflects the confidence that the 
nuclear industry will create incentives for students to enter 
nuclear-related programs.
    Now, I have constantly watched the development of our 
technical, scientific, and engineering people. And I have 
always found that we are lagging a lot of other people around 
the world. I had two boys who were metallurgical engineers. We 
found that we are developing approximately 11 metallurgical 
engineers. The Chinese are developing about 11,000. Do you 
believe that there is a need to train nuclear engineers in this 
country and do you support the NRC's role in the IUP? Yes or 
no?
    Ms. Macfarlane. Excuse me, the----
    Mr. Dingell. In the IUP.
    Ms. Macfarlane. Right. Certainly as a scientist myself, I 
support education in science and engineering and I think that 
the NRC Commission also supports that strongly.
    Mr. Dingell. If you withdraw from this, however, I must 
assume that there will be no Federal money for this kind of 
exercise and that we will not be training the scientists, 
engineers, et cetera, that we will need in this area. Are we 
going to produce the scientists, engineers, and technicians 
that we need if we withdraw and if the NRC withdraws or are we 
not?
    Ms. Macfarlane. I would leave some of the funding of 
science and engineering education to you all.
    Mr. Dingell. My time is up. Thank you, Mr. Chairman. I have 
got my serious doubts that we will be doing so.
    Mr. Shimkus. The gentleman's time has expired.
    The chair now recognizes another chairman emeritus, Mr. 
Barton, for 5 minutes.
    Mr. Barton. Well, and there is only really one and that is 
Mr. Dingell. I am glad to be in the same sentence with him.
    We are glad to have our new chairman of the NRC.
    Mr. Dingell. You know, this business of being chairman 
emeritus sounds mighty good but it really ain't much.
    Mr. Shimkus. If the gentleman would yield to my colleagues 
who are in the lower levels waiting to ask questions, I still 
think it is very valuable.
    Mr. Barton. Well, I tend to echo Mr. Dingell. Take that and 
50 cents, and in Texas, you get a Dr. Pepper. But it is good to 
be on the committee regardless of what the titles are.
    Chairman Macfarlane, we are certainly glad to have you and 
I noticed that the previous questioners have all been 
unbelievably polite, which is somewhat unusual for this 
committee but not unique.
    I would like to go into waters that are a little bit 
murkier. Your predecessor was not known for his collegiality 
with his fellow commissioners. In fact, there were some fairly 
rigorous attempts on his behalf to withhold information and to 
manipulate the decision-making process. Would you care to give 
us your view on how you plan to manage the decision-making 
process and the information gathering and dissemination at the 
Commission?
    Ms. Macfarlane. Surely. I am committed to being as 
collegial as possible. I regard my fellow commissioners as my 
peer equals. And as such, I think they should have access to 
all the information I have access to. I am committed to sharing 
with them written information from my office, and I have 
directed my staff as well to be as open with their staffs.
    Mr. Barton. So you don't intend to use your position as 
chairman to withhold and in some ways shape the outcome of 
decisions? You plan to use the position to gather but to share 
on an equal basis whatever information comes to you as 
chairman? Is that a fair assessment?
    Ms. Macfarlane. That is a fair assessment. I believe that 
the intention of the Commission with five Commissioners is to 
act together. We certainly will not agree on every issue but 
that is not the intention of the Commission.
    Mr. Barton. OK. Now, some of the members may have asked a 
storage question, but there is an obvious--I don't want to say 
elephant in the room because that has political overtones, but 
there is a big issue that is not being addressed and that is 
permanent high-level waste storage. I would say a majority of 
our committee feels that it would be appropriate to move 
forward at Yucca Mountain. There are members of the Energy 
Committee that would prefer that we not. Do you have a view 
that you want to express about how to assess what to do at 
Yucca Mountain?
    Ms. Macfarlane. About how to assess what to do at Yucca 
Mountain? No, at this point I do not. I will wait to see what 
issues are presented to us as a commission.
    Mr. Barton. That is fair enough for the first time you are 
here.
    I yield back, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time.
    The chair now recognizes the ranking member of the full 
committee, Mr. Waxman, for 5 minutes.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    There are two nuclear power plants in California. One is 
Diablo Canyon in Mrs. Capps's district; the other is the San 
Onofre Nuclear Generating Station near San Diego. And I would 
like to ask some questions about the San Onofre plant.
    In February 2011, new steam generators were placed in 
service at that plant, which was a major capital expense. The 
project cost California ratepayers $670 million. This expense 
was large, but the new equipment was supposed to last 40 years. 
But on January 31 of this year, less than a year after 
generators were put in place, a tube in one of the unit's steam 
generators started leaking radioactive steam into the 
atmosphere. An alarm sounded; the reactor was shut down. The 
other unit was not operating at the time because it was being 
refueled. Six months later, both reactors remain shut down. 
Fortunately, NRC has determined that the actual release of 
radiation into the environment was minimal in this case. Is 
that right, Dr. Macfarlane?
    Ms. Macfarlane. I believe that is correct.
    Mr. Waxman. After the January shutdown, NRC sent in an 
inspection team who issued their report last week, and 
according to NRC's inspection team after just a single year of 
operation, a large percentage of tubes in the steam generators 
had been worn down because excessive vibration was causing them 
to rub against each other. Last week's report found that this 
problem was probably caused by faulty computer modeling in the 
design of the steam generators and by manufacturing issues. The 
report stated, ``the loss of steam generator tube integrity is 
a serious safety issue that must be resolved prior to further 
power operation.''
    Do all of you agree that this is a serious safety issue?
    Ms. Macfarlane. Certainly.
    Mr. Waxman. I see the witnesses all shaking their heads in 
the affirmative. Does anybody disagree? If not, I will assume 
that all of you agree.
    Dr. Macfarlane, can you explain why these significant 
design and manufacturing flaws were not detected earlier? What 
NRC oversight process was in place to ensure that the new steam 
generators would be safe and why didn't that process identify 
the flaws before the steam generators were turned on?
    Ms. Macfarlane. Thanks for your question, Congressman 
Waxman.
    I am still learning about all the issues and the technical 
details of the issues at the San Onofre plant. And I understand 
that this past March the NRC issued a confirmatory action 
letter to require evaluation and repair of the steam generators 
prior to restart. And so the NRC will certainly ensure that the 
plant is safe before it does restart.
    As to why this was not detected prior, I will defer to my 
colleagues for much of that question, but my understanding is 
that the NRC did evaluate the plans for the new steam 
generators, but certainly I think we will be evaluating the 
lessons learned from this entire experience.
    Mr. Waxman. Anybody else want to answer anything?
    Ms. Svinicki. Yes, sir, to add to Chairman Macfarlane's 
answer. I am in agreement with her answer. I would note that 
the Augmented Inspection Team Report that you referred to that 
was issued last week also identified 10 unresolved items that 
will be the subject of additional follow-up. I would just 
mention relevant to your question that there are, of these 10 
items, some related to design issues, control of original 
design dimensions, and adequacy of Mitsubishi's thermo-
hydraulic model that mentioned. So at least 3 of the 10 I think 
have direct relevance to the question you asked.
    Mr. Waxman. But why didn't the process identify these flaws 
before the generators were turned on?
    Ms. Svinicki. Well, I didn't mention another of the 10, 
which is the methodology itself for the review is another 
unresolved item for additional follow-up.
    Mr. Magwood. Yes, I believe, Congressman, you are asking 
the right questions, a question I have asked the staff myself 
because I believe that if you look at what the licensee did in 
going forward with the replacement, they followed our process 
the way they should have. Everyone did what they were supposed 
to do under the process. So when you have an outcome that is 
not satisfactory, you have to take a look at the process. And I 
think we should take a look at the process and see if there is 
something that we can improve.
    Mr. Waxman. Well, I hope that all of you will look to see 
how we can prevent something like this from happening again at 
a nuclear reactor. It is a relief that the shutdown of this 
reactor went smoothly, the defects in the equipment were 
discovered before there was a major release of radiation into 
the atmosphere, but it should not take a release of any amount 
of radiation into the environment before problems like this one 
are detected. If ratepayers are going to foot the $670 million 
bill for new equipment at a nuclear reactor, that equipment 
needs to be safe and last a lot longer than 1 year.
    Thank you, Mr. Chairman.
    Mr. Shimkus. Mr. Waxman, would you mind if we allow Mr. 
Ostendorff to answer your last question, too?
    Mr. Waxman. Oh, yes.
    Mr. Shimkus. Without objection.
    Mr. Ostendorff. Thank you, Chairman Shimkus. Thank you, 
Congressman Waxman.
    I was just at San Onofre just 2 days ago----
    Mr. Waxman. Good.
    Mr. Ostendorff [continuing]. And spent 3 hours there Sunday 
afternoon this past weekend and had members of Congressman 
Issa's staff, Senator Boxer's and Senator Feinstein's staff 
with me to receive a briefing from the licensee about this 
exact issue. And I agree with everything my colleagues have 
said. I will also add that I believe there is a very 
comprehensive, rigorous technical evaluation that still is 
underway to look at these problems, and I assure you that 
everyone shares your concerns on the safety aspects of this 
issue.
    Mr. Waxman. Well, I appreciate that. We want to be sure 
that it operates safely and we don't want to have to find out 
that it wasn't operating safely after the fact. We want to 
prevent problems. Thank you.
    Mr. Shimkus. The gentleman's time is expired.
    Chair recognizes the gentleman from Nebraska, Mr. Terry, 
for 5 minutes.
    Mr. Terry. Thank you, Mr. Chairman.
    And certainly it has been unanimously noted here that the 
previous chairman certainly was a brilliant manipulator of 
rules and therefore exposed some weaknesses in the rules and 
processes within the NRC, which we would like your feedback on 
how to properly repair. If there is a bill that comes through 
our committee on reforms of NRC rules, I would ask each of you 
if you could within the next 30 days individually provide us 
your views on legislative changes that you feel would be useful 
in this process. It is nice that we can actually now ask you 
for that type of help when before we felt like that would be, 
well, not appropriate. So it is great that there is now a new 
atmosphere that allows us to have open discussions about 
reforms within the NRC rules.
    One of the reforms that I think is necessary, and that is 
in declaration of an emergency. Again, I think that was 
highlighted by the last chairman that that is uncertain and I 
would like, Mr. Ostendorff, because of your unique background 
and view, your opinion on the lack of clarity in the management 
and leadership in the NRC during times of emergencies and how 
it could be improved.
    Mr. Ostendorff. Congressman Terry, thank you for your 
question. Let me make an overall comment first and then I will 
get to the specific issue on perhaps emergency powers----
    Mr. Terry. OK.
    Mr. Ostendorff. --if that is acceptable.
    Mr. Terry. Sure.
    Mr. Ostendorff. I would say that we have certainly under 
the Energy Reorganization Act, as well as the Commission's own 
Internal Commission Procedures, we have in place a structure 
that guides how the Commission does business. And I think 
everybody here in this committee has experience in leadership 
roles, management roles, and so often how those roles are 
executed is a function of the personality and the character of 
the person who has the key positions. And so I can say at one 
level that there are no changes required to any of our 
procedures just by virtue of the fact we have a different 
chairman in place right now. At the same time I can say that 
while it should not be situation- or personality- or 
individual-specific, and therefore, there might be some changes 
that would be appropriate. So I commit to you to providing this 
feedback within 30 days on legislative remedies.
    With respect to emergency powers, as I previously testified 
before Congress, we had and other colleagues I think the same 
situation with Chairman Jaczko at the time grave concerns on 
his lack of notification as to whether we actually were in a 
situation where he had taken emergency authority in the events 
of Fukushima. And there was a clear lack of clarity as to 
whether or not he had taken those powers, and I think certainly 
trying to have a more bright line as to whether or not those 
powers are being invoked would be appropriate.
    Mr. Terry. All right, I appreciate that.
    And Chairman Macfarlane, do you think in times of emergency 
it is important or not important to have the input of your 
other colleagues, the commissioners?
    Ms. Macfarlane. I understand that the chairman has the 
authority in an emergency and as chairman I would always follow 
the law and commission procedures I would like to----
    Mr. Terry. Is that a no, then?
    Ms. Macfarlane [continuing]. Commit to that now. No, 
certainly it is the opposite. If time allowed before emergency 
powers were declared, I would absolutely consult with the other 
commissioners to get their views and hear their concerns.
    Mr. Terry. All right. I appreciate the answer, then. And I 
have one more question regarding the voting process. One of the 
things that we have learned is that there appears to be a lack 
of transparency and commissioners, some have suggested that it 
needs to be more transparent to the point of all discussions 
should be live on camera and on the record. That is certainly 
how we do it in the House but I kind of learned that it is more 
of a collegial, almost like the Supreme Court discussions. So 
yes or no, Ms. Macfarlane, do you believe that there needs to 
be changes in how the voting process is done, you know, in 7 
seconds.
    Ms. Macfarlane. I think I need to learn more about the 
history of voting practices at the NRC to better understand the 
options for the internal voting procedures. And certainly, in 
an effort to maintain collegiality, before any changes were 
made to the voting process, I would consult again with my 
fellow commissioners to understand their thoughts on this 
issue.
    Mr. Terry. All right. Thank you, Mr. Chairman.
    Mr. Shimkus. I thank my colleague. I would just jump in and 
just say there is also an issue of time when a vote is called 
and how long people can vote and there was a problem identified 
with that. So I appreciate that.
    The chair now recognizes the gentleman from Georgia, Mr. 
Barrow, for 5 minutes.
    Mr. Barrow. Thank you, Mr. Chairman.
    Members of the Commission, the biggest thing going on in my 
State right now is the construction of the two nuclear cells at 
Plant Vogtle in my district. And I wonder who is in a position 
to give me an update on the status of the progress being made 
there? Yes, sir?
    Mr. Ostendorff. Congressman, I was down there 2 weeks ago 
and visited the site, both Summer and Vogtle, and there is a 
lot of activity down there. There is probably close to 2,000 
workers on the site at Vogtle and they are working on both 
units three and four. There had been a delay over some what is 
called rebar issues on the framing that goes down for the base 
mat concrete. I believe that there is a clear path forward for 
the licensee, Southern Nuclear Company, to move forward with 
that. Our NRC resident team is onsite with at least three 
inspectors full-time plus other people from Atlanta, the Region 
2 office, to inspect the status of construction and I think 
things are moving along well.
    Mr. Barrow. What impresses me about a project this large is 
the relationship you got to have between the owners, the 
contractors, and the regulators. How would you describe the 
relationship between the three groups of actors who are 
responsible for bringing this off?
    Mr. Ostendorff. My other colleagues, I would ask them to 
add in here, Congressman, but I think there is great openness 
in communications between Southern, and they are part of a 
consortium with Westinghouse and with Shaw, which run the 
contracting group for the construction operation. I think those 
three entities on the consortium are communicating well with 
NRC and I think, as with any project, there are lessons 
learned, some improvements that could be made, but I think as 
far as where things are from where I sit, I think it is in 
pretty reasonable condition.
    Mr. Barrow. Mr. Magwood, do you have anything to add?
    Mr. Magwood. I agree with Commission Ostendorff's comments. 
I visited the site myself some months ago and have talked 
recently with leadership associated with the project. And I 
think one answer I give to your question is that it is a 
learning process. This is the first time a nuclear power plant 
has been built using the 10 CFR Part 52 process.
    Mr. Barrow. First one we have done in this country in 30 
years.
    Mr. Magwood. It is the first one in 30 years but this is 
the first plant in history ever to use this particular process. 
And I think we have all learned a lot as we have gone forward 
in the last several months that clearly the relationship 
between the owners and the contractors is evolving as we speak. 
The relationship between NRC and the project is evolving 
because of the types of information that every side needs to 
have during the construction process. It is something we are 
all learning and it has actually been a very educational 
process I think for everybody.
    Mr. Barrow. Commissioner Svinicki, do you have anything to 
add?
    Ms. Svinicki. Congressman, I would only add that I share 
your observation about the importance of this communication 
three ways, the constructor, the licensee, and the regulator, 
and I have heard that acknowledgement articulated from 
Southern, from Shaw as well. And I think there is also a 
commitment, although they realize that communications need to 
get to a very high fidelity. Also accountability of who has the 
authority to do what is something I think that they had been 
working through some issues there, who approves what kind of 
changes. But I think also there is a commitment that they want 
to map these things out and learn these lessons one time, learn 
them early, and have the process go smoothly moving forward.
    Mr. Barrow. Chairman Macfarlane, what is your impression of 
the progress being made?
    Ms. Macfarlane. Of the--sorry?
    Mr. Barrow. Of the progress being made on this project.
    Ms. Macfarlane. As far as I understand, it is going well. 
The process is working as it should and the communication 
between the regulator, the NRC, and the licensee. And I have 
not had an opportunity yet in my 2 weeks to visit the Vogtle 
plant, but I do look forward to visiting.
    Mr. Barrow. I look forward to your visit as well.
    One last question to all of you all collectively. Are there 
any concerns on the horizon that you are aware of that we need 
to address that would help us to know about?
    Ms. Macfarlane. At this point, no.
    Mr. Barrow. Does that go for the rest of you? Thank you so 
much.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Shimkus. The gentleman yields back his time. Chair now 
recognizes the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Thank you, Mr. Chairman. Appreciate the time and 
also for you all coming in again to testify. I tell you, it is 
a little bit different from the past testimonies we have had 
when you have all assembled, quite refreshing.
    If I could start with this question, during the hearing 
process for a license renewal application, the Atomic Safety 
and Licensing Board and the Commission must adjudicate various 
contention petitions and appeals. Historically, such decisions 
were reached in little over 100 days on average. Beginning in 
2009--I guess we got the chart right here, as you can see--the 
average time frame doubled and remains at 185 days or higher. 
Our research shows that several matters were pending before the 
Commission for over a year. The NRC's reliability principle 
states that, ``regulatory action should always be fully 
consistent with written regulations, should be promptly, 
fairly, and decisively administered so as to lend stability to 
the nuclear operational and planning processes.'' And here is 
the question. What steps are the Commission taking to address 
this situation and promptly, fairly, and decisively administer 
these matters?
    Ms. Macfarlane. Let me take a first stab at this. I will 
take the 30,000 foot view. My understanding is that the NRC 
staff are working very efficiently, as efficiently as possible, 
but we all must recall that these license renewals and 
licensing issues are adjudicatory matters and they take time 
before the Commission, especially when they are contested. And 
we at the Commission have no control over whether these 
licensing issues are contested.
    I will let my colleagues answer, too.
    Ms. Svinicki. In viewing your chart, Congressman, I think I 
would share two observations. One is that when the time period 
began to be protracted, I believe overlaps with periods where 
the Commission only had three serving members--and although I 
can't definitely attribute the prolonged durations to that 
period--I would say that the Commission functions best when it 
is at its full complement of five. When there are only three 
members, if two vote, a quorum is not established and the third 
has, in essence, a pocket veto. And so the Commission, in my 
view, does not function as efficiently when it is down to three 
members.
    So although I can't prove that that is part of the 
attribution of the prolonged durations, the other observation 
that I would make is though I have only been on the Commission 
for a little over 4 years, I have noticed that participants and 
interveners in the Commission's proceedings have really 
observed the evolution of license renewal issues over time. 
They have become extremely skilled and informed in their 
participation and intervention in these proceedings. Therefore, 
the numbers of appeals and petitions to the Commission has 
increased.
    I think in response to your question of what can we do, I 
would make a personal pledge to look at agency resourcing for 
our Office of Commission Appellate Adjudication, which is a 
group that, as a first instance, receives and reviews briefs on 
these appeals and develops draft opinions and orders for the 
Commission. I think that we could look at whether that office 
is adequately resourced.
    Thank you.
    Mr. Latta. Thank you. Commissioner Magwood?
    Mr. Magwood. Your chart actually raises some questions in 
my own mind, so I would like to discuss with the staff to see 
if there are some trends that we should be aware of, and if 
there are some trends, find ways to correct them.
    But as a general matter, let me say that it has always been 
my view that regulatory actions take as long as they take. I 
don't think the regulators should ever really apologize for 
taking more time if more time is necessary to assure safety. 
But at the same time, I do think it is our responsibility to be 
efficient and to dispatch issues quickly and fairly. But if, 
because of the contested process, we have a longer-than-normal 
situation develop with a particular renewal, that is a process 
we simply have to work our way through. And we have had, in 
recent years, some plants that have had more difficult 
renewals.
    Mr. Latta. Commissioner Ostendorff?
    Mr. Ostendorff. Thank you, Congressman. I agree with my 
colleagues. I will add maybe just one statement that is while 
these issues with the extended license renewal process have 
typically almost always been in contested cases, I would say I 
think the commissioners at this table and Commissioner 
Apostolakis that have voted in a very timely matter on the 
actions when those have been presented to the Commission, not 
everything comes to us directly. There are certain activities 
before the licensing boards that we don't get involved in. And 
our voting record, I believe, has been very responsible as far 
as acting in a timely manner once it gets to us. Oftentimes, 
that is delayed because of contentions.
    Mr. Latta. Well, thank you very much.
    And Mr. Chairman, I see my time has expired.
    Mr. Shimkus. Your time has expired.
    The chair now recognizes the gentlelady from California, 
Mrs. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman.
    And Chairman Macfarlane, congratulations on your new 
position. I wish you every success. The fact that you are 2 
weeks on the job and you are making an appearance here shows a 
lot of courage on your part, and I appreciate your willingness 
to do so.
    Before I get to my questions, as my colleague, Mr. Waxman, 
mentioned, I do represent--I have Diablo Canyon Nuclear Power 
Plant in California and the surrounding communities. Right now, 
some of the best eyes and minds in our country and looking at 
the seismic issues at this plant. And I have worked with the 
NRC and the utility there, which is PG&E, to pause the 
relicensing process until advanced seismic studies are finished 
and reviewed. And I do give a lot of credit to PG&E, as well as 
State and Federal regulators, for working to update their 
seismic analyses. As a geologist, you surely recognize why this 
type of analysis is very important. This is first and foremost 
about safety.
    But the seismic concern also impacts affordability and 
reliable generation as well. My constituents living in the 
communities around Diablo feel the same way. And I just want 
your commitment to work with us and make sure these studies are 
completed in a timely manner.
    Ms. Macfarlane. Absolutely.
    Mrs. Capps. Thank you.
    Ms. Macfarlane. I am absolutely committed to that.
    Mrs. Capps. And now, I want to turn to the Fukushima 
disaster and the spent fuel pools. Fukushima clearly 
illustrates how spent fuel pools can become unstable when a 
nuclear power plant loses the power needed to cool them. The 
spent fuel rods in Fukushima continue to pose serious problems 
and many concerns as Japan attempts to stabilize and clean up 
the site. My understanding is that many spent fuel pools in the 
United States are even more densely packed with spent fuel 
rods. Chairman Macfarlane, what are the safety concerns 
associated with densely packed spent fuel pools?
    Ms. Macfarlane. This is an issue in one of the Fukushima 
activities, the Tier 3 Fukushima activities that the NRC will 
be looking at. So I assure you, this issue will get attention. 
And it is, I believe, also getting attention from a National 
Academy of Sciences study as well.
    Mrs. Capps. Exactly. The alternative to pool storage, of 
course, is dry cask storage----
    Ms. Macfarlane. Um-hum.
    Mrs. Capps [continuing]. And in 2006 the National Academy 
of Science issued a report showing that moving spent fuel from 
pools to dry above-ground casks reduces both the likelihood and 
potential impact of a radioactive release from spent fuel. This 
is my question: Do you believe dry casks do rely on external 
power sources to cool the stored fuel?
    Ms. Macfarlane. No, they are passively cooled.
    Mrs. Capps. OK. As we all know, the reactors in Fukushima 
lost all power after the earthquake and the tsunami. So the 
question is, how did the dry cask on Fukushima site withstand 
the earthquake, the tsunami, and subsequent station blackout? I 
am sure this is a question you have been addressing.
    Ms. Macfarlane. My understanding is that the spent fuel 
casks, the dry casks at Fukushima withstood both the earthquake 
and tsunami very well. And we have additional information from 
this country because there were dry casks at the North Anna 
facility in Virginia during last summer's Mineral, Virginia, 
earthquake, and those dry casks also performed very well.
    I invite my colleagues to add anything if they would like.
    Mr. Magwood. I would just add one comment and that is that 
while there certainly has been a lot of concern and discussion 
about the spent fuel pools at the Fukushima site, the fact is 
that the spent fuel pools at Fukushima actually survived the 
event reasonably well. And today, we believe from all the 
information we received from our Japanese colleagues are safe 
right now. And while we encourage them to move that spent fuel 
out of those pools as quickly as possible, it does demonstrate 
how rigorous these buildings and structures are, and the 
ability of the facility at the Fukushima site to survive an 
earthquake and tsunami does give some confidence that these 
pools are safe and don't present a threat to the public.
    Mrs. Capps. And of course this is a topic that is going to 
take a lot of continued study, long-term study, and I don't 
have to ask--I hope I can assume--that there is a tremendous 
interest on your part in doing that given the benefits of dry 
casks it would seem. And I ask for a confirmation from you or 
some comments that accelerating transfer of spent fuel from 
pools to casks lowers the risk posed by densely packed spent 
fuel pools. And then to sum up in the few seconds your thoughts 
on this particular area, which I wish to explore with you 
further.
    Ms. Macfarlane. Sure. And I would be happy to explore this 
in the future with you at greater length, but as I said, 
certainly the Nuclear Regulatory Commission is looking at this 
specific issue and will gather more information about this 
specific issue.
    Mrs. Capps. Thank you very much.
    Mr. Shimkus. The gentlelady's time is expired.
    The chair will now recognize the gentleman from West 
Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    To the committee as a whole, I think earlier there was some 
discussion about the--or Congressman Barton bringing up the 
subject of the Yucca Mountain. There was some discussion about 
it. I am curious. I have been reading about Yucca Mountain 
since the '80s. I am just one of two engineers in Congress who 
practice engineering. '82 is when the Act was put into effect. 
In '87 is when Yucca Mountain was designated to be the 
repository. Twenty-five years we are still talking about it. Is 
that what I am hearing from the panel? We are not sure what we 
are going to do with that?
    Ms. Macfarlane. It is not the NRC's job to make policy. We 
are a regulator. But given that and given my past experience as 
a commissioner on the Blue Ribbon Commission, I will say, yes, 
there is still discussion about Yucca Mountain. And let me just 
say as a scientist--you are an engineer and maybe engineers, 
you work faster than scientists--but science often works very 
slowly.
    Mr. McKinley. But I think we work faster than 25 years. I 
am just curious how much money has been spent on Yucca Mountain 
in terms of infrastructure, bricks-and-mortar? What have we 
invested in that over these 25 years?
    Ms. Macfarlane. This again is an issue that is not under 
the control or purview of the Nuclear Regulatory Commission, 
but I believe if you are looking just at what has been spent on 
Yucca Mountain itself and not on the entire waste disposal 
program, you are looking at a figure between 7 and $8 billion
    Mr. McKinley. I am sorry?
    Ms. Macfarlane. Between 7 and 8 billion dollars. I don't 
have the exact number.
    Mr. McKinley. Seven and eight billion dollars?
    Mr. Shimkus. If the gentleman would yield, I think you can 
make some claims for 15 billion. And the other thing, just to 
put this in perspective, what the NRC needs to do is finish the 
scientific study. A lot of Yucca Mountain issue is DOE and 
money spent in that venue.
    Mr. McKinley. We have the permit.
    Mr. Shimkus. The NRC is tasked, we hope, eventually to 
finish the scientific study, and then that would then be the 
final aspect of proving the viability for Yucca. They won't 
manage the site. There are not going to be empowered to do 
that.
    Mr. McKinley. I am just trying to get a better handle of it 
up close. This glacial pace that we move around here is pretty 
incredible to think that 25 years later we still don't have a 
place to deposit. So my question would from you all, your 
perspective, given there are probably two courses of action 
dealing with spent fuel rods, they are either going to go into 
a geological formation below the ground someplace or we are 
going to recycle them as they do in France with AREVA La Hague. 
So can you tell me which is the more likely direction you see 
nuclear fuel rods going in in this country?
    Ms. Macfarlane. Well, again, the NRC doesn't set that 
policy for the U.S. The NRC regulates the reactors and 
materials.
    Mr. McKinley. I understand you don't, but in your opinion, 
you are the regulatory group on nuclear power.
    Ms. Macfarlane. Um-hum.
    Mr. McKinley. Where do you think we are going as a nation 
after 25 years we can't decide it is going to be Yucca Mountain 
in Washington----
    Ms. Macfarlane. Well----
    Mr. McKinley [continuing]. Are we going to go to recycling? 
Which direction do you think we should go as a nation?
    Ms. Macfarlane. No matter whether you go in direct disposal 
of spent fuel or you recycle as France does, you will need a 
final repository. And France itself is working now on its final 
site selection for a deep geologic repository.
    Mr. McKinley. As a nation, do you see us in recycling ever?
    Ms. Macfarlane. I think it is largely an economic and 
policy question.
    Mr. McKinley. OK. I don't think it comes under your purview 
but I believe under the Act in '82 that they set up that the 
consumers using nuclear power would be assessed charges for the 
disposal of----
    Ms. Macfarlane. Yes, the Nuclear Waste Fund, yes.
    Mr. McKinley. Right. Where is that money going? If we don't 
have----
    Ms. Macfarlane. You manage it. Congress manages the money, 
the Nuclear Waste Fund and you appropriate it.
    Mr. McKinley. I am trying to understand here. So we can 
have that turned back over to the consumer or is it being 
collected and just saved?
    Ms. Macfarlane. It has been collected and saved into the 
Nuclear Waste Fund and the consumers--sorry, it is the 
ratepayers who pay into this fund at 1 mil per kilowatt hour.
    Mr. Shimkus. The gentleman's time is expired.
    Mr. McKinley. My time is expired, I am sorry. Thank you.
    Mr. Shimkus. Before I go to the gentlelady from Florida, I 
would ask unanimous consent for my colleague, Mr. Green, for 1 
minute.
    Mr. Green. This is for my colleague. I think we need to 
look at both long-term storage, which Yucca Mountain was the 
solution from the '80s, but we also need to look at recycling. 
But we have to have interim storage. And the success in these 
other countries--France, for example--they have interim storage 
but recycling--but again France doesn't have a long-term 
storage solution either whereas Sweden--and I know Mr. Murphy 
and I were there a while back and they at least have a 
potential for long-term storage in Sweden.
    Mr. Shimkus. The gentleman's time is expired.
    The chair recognizes the gentlelady from Florida, Ms. 
Castor, for 5 minutes.
    Ms. Castor. Thank you, Mr. Chairman.
    Thank you all very much for being here this morning.
    Dr. Macfarlane, in your testimony you reference that there 
are currently two units in extended shutdowns, and one of those 
is the Crystal River Unit 3 in Florida. Crystal River remains 
in extended shutdown while its owner evaluates repair options 
for a separation in the concrete wall of the containment 
building. In 2009, you all are aware they were conducting some 
repairs there, and during that time, they discovered and 
unexpected crack, separation in the concrete wall. And I guess 
the technical term is delamination. You all know more about 
that than I do. They informed the NRC. NRC sent an inspection 
team. You all followed up with a special inspection team. You 
have had public meetings. You have issued a special inspection 
report, came down for another public meeting. In June of last 
year, Progress Energy, the owner then, stated their intent that 
they intended to repair Crystal River and they were proceeding 
with necessary engineering and construction plans, dealing with 
insurance issues, and had stated an intent to return the plant 
to service in 2014.
    Since that time, just hear earlier in the month, Progress 
Energy merged with Duke Energy, and reports following that 
merger appear to make the future of the Crystal River Unit 3 
plant a little more uncertain. It appears that the NRC's 
position has been that Crystal River can be repaired safely. Is 
that correct in your opinions? And have any of you traveled to 
the site?
    Ms. Macfarlane. Well, as you might suspect, I haven't had 
the opportunity to travel to Crystal River yet but I intend to 
learn more about the situation at Crystal River. And I will ask 
my colleagues to comment.
    Mr. Magwood. I had the opportunity to visit Crystal River. 
I think it has probably been about 2 months ago. And I did 
inspect the repair work that is underway. The NRC staff has 
been watching this very closely. The repair work that is 
underway is very complex in many ways. Some of it is actually 
quite unique, but from everything that I was able to learn 
during my visit and subsequent conversations, it is clearly 
repairable. It is clearly something that the licensee knows how 
to complete. I think that the kinds of discussions that you are 
referring to are business decisions really. How long are they 
willing to wait and how much will it cost them? But from a 
regulatory standpoint, from a technical standpoint it seems 
quite repairable. But whether it is a decision they plan to 
make or not, we will wait and see.
    Ms. Castor. Any other comment?
    Mr. Ostendorff. I visited Crystal River maybe 2 years ago. 
My understanding is not as up-to-date as Commissioner Magwood, 
but I believe it is consistent with what I have heard 
generally.
    Ms. Castor. OK. Is it the NRC's role to examine the costs, 
do a cost-benefit analysis of moving forward or not?
    Ms. Svinicki. No, that would not be an appropriate role for 
us.
    Ms. Castor. OK. If the nuclear reactor is repaired, is it 
subject to all of the updated NRC safety requirements?
    Ms. Macfarlane. Yes.
    Ms. Castor. Including ones--is that the same as if it were 
going for a new license? The license for this plant expires in 
2016. Is that the same analysis and the same requirements?
    Ms. Macfarlane. Same requirements for?
    Ms. Castor. A repair. Would NRC be asking for the same 
updated safety requirements when they go for a license renewal? 
The license expires there in 2016.
    Ms. Macfarlane. My understanding is no, not necessarily.
    Mr. Magwood. I think as a general matter that all of our 
plants operate under the same safety standards. So we don't 
differentiate between a plant that is operating under its 
original license versus a plant that is operating under its 
renewed license or a plant that has been repaired. They are all 
expected to meet the same standards.
    Ms. Castor. Are you aware that the Duke Energy Board of 
Directors conducted an independent analysis of the Crystal 
River plant? And has anyone received any report or the details 
of that independent analysis conducted here over the last few 
months?
    Ms. Svinicki. I am not aware of that and I am not aware 
that the agency has received any such report.
    Mr. Shimkus. The gentlelady's time is expired.
    I do appreciate my colleagues really getting their 
questions done and we have got a lot of Members that are still 
obviously here to ask questions. And everybody has been doing 
it in a timely manner. I appreciate that.
    The chair now recognizes the gentleman from Colorado, Mr. 
Gardner, for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you to the 
witnesses for your time today. And welcome, Ms. Macfarlane, to 
the committee.
    In a previous question, there was a question about 
emergency powers that were taken up by the previous chairman of 
the NRC. Any of those powers left, residual powers? They have 
all been business as usual has been restored, returned?
    Ms. Macfarlane. It is my understanding.
    Mr. Gardner. Thank you.
    And a couple questions about the Office of Public Affairs I 
think are very important to some of the interactions that we 
have had as this committee with the NRC. If you take a look at 
the Reorganization Plan of 1980 that provided the Office of 
Public Affairs reports directly to the chairman to assist the 
chairman as the principle spokesman for the agency, when this 
committee began its investigation into governance of the NRC, 
we identified some key questions about the role of the Office 
of Public Affairs. And I wanted to just talk and read a little 
bit about some of the work that we have seen coming out of the 
Office of Public Affairs.
    And this is from a July 2011 rollout plan for the Fukushima 
Task Force recommendations, as prepared by the director of the 
Office of Public Affairs. ``In this speech, the chairman can 
lay out his thought for how to proceed, what he sees as his 
priorities, the need to move with dispatch, et cetera. This 
will be a subtle nudge to others to get on board or appear to 
be foot-dragging. The speech needs to be a) newsworthy, and b) 
collegial but firm with perhaps a notional timetable to set 
expectations which, if not met, he can point to as evidence of 
fill-in-the-blank criticism.'' That statement then was made. 
And of course, in December to the Washington Post editorial 
page, there was another statement from the Office of Public 
Affairs. ``As you may have noticed, our chairman is in a 
shooting match with his four colleagues on the Commission, a 
very public and bitter dispute.''
    The office director drafted a statement that read, ``I was 
not the choice of the nuclear industry to sit on the 
Commission, let alone be chairman. Time after time on critical 
safety questions, my vote has been the lone tally cast in the 
interest of stronger safety requirements and accountability. 
Others have sought a different level of safety. Some have 
sought to delay and dilute safety decisions.'' And I guess I 
would ask to you, Madam Chairman and to the other 
commissioners, do you believe it is appropriate for the Public 
Affairs Office to devise press strategies to influence 
commissioners' votes or to impugn commissioners' dedication to 
public safety?
    Ms. Macfarlane. Thanks for your question. As you said, my 
understanding is that the Office of Public Affairs at the NRC 
assists the chairman in carrying out his or her 
responsibilities as principle spokesperson for the NRC. 
Therefore, the director of Public Affairs and the Office of 
Public Affairs work at the direction of the chairman. And all I 
can point out is now, there is a new chairman. And in my 2 
weeks there, I have been comfortable working with the Office of 
Public Affairs.
    Mr. Gardner. And so the question of do you believe it is 
appropriate for Public Affairs to devise press strategies to 
influence commissioners' votes, you would disagree with that 
strategy?
    Ms. Macfarlane. As far as I understand your question, yes.
    Mr. Gardner. So you would not be using the Office of Public 
Affairs--Public Affairs would not be used to try to influence 
other commissioners?
    Ms. Macfarlane. I have absolutely no intention of doing 
that.
    Mr. Gardner. Or to impugn dedication to public safety?
    Ms. Macfarlane. I have no intention of that.
    Mr. Gardner. Other commissioners care to comment?
    Ms. Svinicki. I would note, Congressman, that a member of 
the committee this morning asked for any recommendations where 
statutory language could be perhaps clarified about the 
appropriate uses of perhaps an office such as Public Affairs. 
And so I would note that the legislative history of this matter 
indicates that although the chairman is the principle 
spokesman, he or she is to be bound in those communications by 
the overall policy and guidance of the Commission as a whole. 
So I didn't respond earlier to the question about proposing 
changes to the Reorganization Act or plan, but I do feel that 
my experiences of the last 4 years have exposed areas where 
there was disagreements amongst members of the Commission about 
what these statutory provisions meant.
    And so in my commitment to provide any proposals, I think 
they wouldn't be to change anything the Congress did after 
Three Mile Island because I think it was appropriate to 
strengthen the chairman's role, but I do think that we have 
disputed each other over what some of the words mean. And to 
the extent that the Congress were willing to clarify or 
emphasize some of these points, I think it could further the 
collegial functioning of the Commission in the future.
    Mr. Gardner. And that is exactly right. And so going back--
I am running short on time here--just to make sure that we are 
clear on what this Office of Public Affairs can and shouldn't 
be used for, to the chairman, is it appropriate for the 
chairman to use the Public Affairs Office to promote personal 
views as a commissioner? I direct that to you.
    Ms. Macfarlane. To promote personal views?
    Mr. Gardner. Yes, to promote----
    Ms. Macfarlane. No, the----
    Mr. Gardner [continuing]. Their personal policy views, 
excuse me.
    Ms. Macfarlane. Sorry. The chairman is representing the 
organization, so personal views should not be part of this.
    Mr. Gardner. OK. And you made the comments on the collegial 
structure. And I guess I would just ask for your commitment, 
Madam Chairman. Will you commit to refrain from these tactics 
that have been used in the past?
    Ms. Macfarlane. As far as I understand them, yes, I commit.
    Mr. Gardner. As far as you understand them? So you will not 
use----
    Ms. Macfarlane. As far as I understand what happened in the 
past. I was not part of the Commission in the past and I am 
trying to understand what has happened with the Office of----
    Mr. Gardner. So you won't be using the Public Affairs--I am 
out of time.
    Mr. Shimkus. The gentleman's time is expired.
    Chair now recognizes the gentleman from New York, Mr. 
Engel, for 5 minutes.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Welcome, everybody. Dr. Macfarlane, congratulations. I want 
to talk to you about Indian Point in New York City suburbs. It 
is one of the most serious issues facing New York. Indian Point 
is located obviously by our Nation's largest metropolitan area. 
It has an operational history that has been plagued by 
irresponsible acts, unplanned shutdowns, lacking spent fuel 
pools, and inadequate emergency notification and response 
systems.
    One of the planes hijacked on September 11 flew over Indian 
Point on its way to the World Trade Center. We have learned 
that the plant is located near two seismic faults that together 
raise the possibility of an earthquake far larger than any 
anticipated when it was built. And there simply aren't enough 
roads to allow for a real evacuation in the event of an 
accident or attack. Neither of the county executives in both 
Westchester County, which I represent, and Rockland County, 
which I also represent, both county executives--one Republican, 
one Democratic--have refused to certify the evacuation plans 
for Indian Point because they know they are ridiculous.
    Indian Point's two active reactors are set to retire in 
2013 and 2015 unless their application for license renewal are 
approved, and there has always been a cozy relationship, 
unfortunately, between the NRC and the industry which in my 
opinion has precluded a serious and realistic evaluation of the 
safety of Indian Point. I have toured it. I have been there 
with your predecessor, Dr. Macfarlane, and I am interested in 
meeting with you to discuss Indian Point in greater detail and 
perhaps tour with me and Congresswoman Lowey. Would you be 
willing to arrange a time to meet with me and talk?
    Ms. Macfarlane. Would I be willing to do that in the 
future? Absolutely. I would be willing to talk with you about 
it and visit it together with you.
    Mr. Engel. Thank you. And let me say at the outset I am not 
opposed to nuclear power. I never issued a peep about Indian 
Point until September 11 when it became clear to many of us 
that this was a safety hazard. So thank you.
    I want to talk about decommissioning. It is an expensive 
process. The New York Times reported in March of this year that 
the operators of 20 of the Nation's aging nuclear reactors, 
including some whose licenses expire soon, have not saved 
nearly enough money for prompt and proper dismantling. And 
Entergy, which owns the Indian Point plant, again, just 24 
miles north of New York City and is at least $500 million short 
of the $1.5 billion estimated cost of dismantling Indian Point 
Reactors 2 and 3. Entergy insists that the shortfall won't be a 
problem because they expect Indian Point to be relicensed for 
another 20 years, and over that period of time, they expect 
interest to accrue to sufficient levels in the reactor's 
retirement accounts. But the fact is that 12 reactors across 
the country have been retired in the last 3 decades all on 
short notice because of a design or safety flaw that the 
economics did not justify fixing. The shortfall in these 
retirement accounts raises the possibility that New York could 
be sitting on sleeping reactors for decades.
    So Dr. Macfarlane, I would like to ask you, what do you 
envision happening if one of the Nation's 20 underfunded 
reactors needed to be decommissioned?
    Ms. Macfarlane. Well, I will note that the U.S. has 
decommissioned a number of reactors and they have been 
decommissioned successfully. So it can happen. There can be a 
positive outcome.
    As far as how to handle the scenario that you describe, I 
think we will probably have to visit it if it happens.
    Mr. Engel. OK. I want to finally talk about relicense 
criteria because I have long been concerned that the 
relicensing of aging power plants is not subject to the same 
stringent criteria used in an application for new power plants 
for initial construction. So let me ask you this, Doctor. Would 
you support using the same criteria for relicensing an existing 
plant as we used to license new plants?
    Ms. Macfarlane. The brand new plants, my understanding that 
we have a well established license renewal program. Of course, 
that doesn't substitute for day-to-day regulatory oversight 
that is required of the operating plants. There is a lengthy 
public hearing process that engages a variety of stakeholders 
in relicensing. And so all of this information is publicly 
available. And I commit to ensuring that these reactors operate 
safely.
    Mr. Engel. Thank you. If I may just take about 5 more 
seconds, Mr. Chairman. I just want to say that information that 
wasn't available when the plant was originally licensed, in my 
estimation, should that not be considered in relicensing?
    Ms. Macfarlane. I think it depends on the particular 
situation.
    Mr. Engel. OK, thank you.
    Thank you, Mr. Chairman.
    Mr. Shimkus. I thank my colleague. The gentleman's time is 
expired.
    The chair now recognizes the gentleman from Texas, Mr. 
Burgess, for 5 minutes.
    Mr. Burgess. I thank the chairman for the recognition.
    And I thank our witnesses for staying with us through this 
lengthy hearing today but it is important. And we hear a lot--
you all mentioned that in your opening statements about the 
collegiality and the importance of that. And of course the 
average American doesn't know what the NRC is and probably 
would not be able to name the commissioners, but for the 
average American, why should they care about collegiality on 
the Board? Aren't you just supposed to do your jobs anyway?
    Ms. Macfarlane. Certainly, we are supposed to do our jobs 
anyway. I think we do them better and we do gain the trust of 
the American people when they do realize that there is an NRC 
out there. We gain a stronger sense of trust when we do operate 
collegially. I think it is very important that we operate 
collegially just to make the process and all the decisions that 
we make work efficiently.
    Mr. Burgess. I don't disagree with that, but in fact, 
should not people be able to depend on your commission even in 
the absence of collegiality?
    Ms. Macfarlane. Yes, absolutely. And I think that the 
Commission did operate and handle all the issues that came 
before it no matter what the situation.
    Mr. Burgess. Well, it did seem that at times there were 
whispers, there were rumors that, you know, legitimate 
differences in policy were interpreted as some of the 
commissioners being characterized as anti-safety. For the three 
commissioners who set the historical precedence, did that ever 
come up with your discussions amongst yourselves?
    Ms. Svinicki. Congressman, I disagree with the 
characterization that some of the recent issues on the 
Commission had to do with disagreeing votes on policy matters. 
I believe over the course of my tenure I have served with a 
number of members of the Commission who are no longer on the 
Commission. I think at one time or another I have probably 
disagreed with everybody. I think that the dysfunction on the 
Commission was much more substantive than a simple policy 
disagreement.
    Mr. Burgess. Was----
    Ms. Svinicki. It was more substantive. It had to do with 
impeding the flow of information and other very fundamental 
issues that I felt obstructed the ability for this commission 
to operate the way Congress intended.
    Mr. Burgess. So legitimate policy differences really should 
not be interpreted as anti-safety, but you are saying there was 
an actual impediment of information flow that kept you from 
doing your job. Whether there was a policy difference or not, 
you were not able to do your job as far as public health and 
safety was concerned?
    Ms. Svinicki. That is correct.
    Mr. Burgess. And I guess I am getting the impression this 
morning that that situation has resolved?
    Ms. Svinicki. I think we are off to a very, very productive 
beginning.
    Mr. Burgess. So the American public to the extent that they 
are watching this hearing this morning can take some comfort in 
the fact that whereas public health and safety may not have 
been at the forefront in the past, it will be going forward?
    Ms. Svinicki. I think all of us kept public health and 
safety forefront, and as Chairman Macfarlane indicated, there 
was an impressive amount of agency work that was conducted. 
However, I would hope that some would view there is a great 
unanimity here and there is an optimism about moving forward.
    Mr. Burgess. Mr. Ostendorff, let me ask you a question 
because you brought up your observation that the series of 
events in Japan of March 2011 would be unlikely to occur in 
this country. I suspect that the month before the earthquake, 
that same statement could have been made about Japan, could it 
not?
    Mr. Ostendorff. Congressman, I think the way I would 
respond to that is that there are significant regulatory 
differences and some cultural differences between the United 
States and Japan as it affects the nuclear industry. As other 
members of the committee have noted, the Japanese Diet report 
that came out just last week highlighted two substantive 
differences between the United States' regulatory framework and 
that in Japan, one dealing with the actions we took in this 
country after the attacks of 9/11 to require additional 
mitigating strategies called B.5.b under our rules to deal with 
fires, explosions, and flooding; and second, to deal with the 
station blackouts and loss of all AC power. And I think those 
are two substantive differences between our two regulatory 
frameworks that are significant factors from the comparison of 
the two countries.
    Mr. Burgess. Let me just ask you--and I may have to submit 
this for the record because of time--but the month before the 
Japanese earthquake, Chairman Shimkus took several of us out to 
Yucca Mountain. And after the Japanese earthquake, one of the 
big problems that was encountered was the loss of the spent 
fuel rods that were in the cooling pools and the loss of 
electricity. It seemed to me that just underscored the 
importance of getting whatever the long-term storage solution 
is--and I believe Yucca Mountain is still viable--but getting 
that done and getting those spent fuel rods out of those pools. 
Do you have any thoughts on that?
    Mr. Ostendorff. Well, I think as others at this table have 
mentioned earlier in today's testimony, the Office of Research 
at the NRC is working on a study--it is almost finished--on the 
spent fuel pool risk associated with keeping fuel in the pool 
as contrasted to taking them out of the pool and putting them 
into dry cask where they are air-cooled. There are a lot of 
other factors associated with, you know, an accelerated 
campaign of taking those out in an expedited manner, and I 
think overall, our staff's assessment to date has been those 
risks are very, very low. But it is still something we are 
looking at as part of our Fukushima actions.
    Mr. Burgess. Thank you, Mr. Chairman. I will yield back.
    Mr. Shimkus. The gentleman's time is expired.
    The chair now recognizes the gentleman from Louisiana, Mr. 
Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
having this hearing. I appreciate the commissioners for coming 
before us.
    We have had almost a year-and-a-half now since Fukushima to 
receive vast amounts of data. A lot has been published about 
the causes, the actions being taken by the global industry. 
With the benefit of the information that we have, have any of 
your initial conclusions--for those of you--we got a little 
construction going on here.
    Mr. Shimkus. Would the gentleman suspend for a second?
    Mr. Scalise. Sure.
    Mr. Shimkus. Committee staff, someone needs to find out who 
is doing work and get them to stop.
    Gentleman may proceed.
    Mr. Scalise. Not sure if that is a shovel-ready project. I 
guess I will proceed and we will just have to bear with it.
    But based on the data that we have, have any of you maybe 
have different reactions today than what the initial assessment 
were back a year and a half ago or, you know, less than a year 
and a half ago about the cause and the priority of the 
regulatory actions associated with Fukushima? If we could just 
start with Mr. Ostendorff and go down.
    Mr. Ostendorff. Thank you, Congressman.
    I think, you know, right after the Fukushima event, the 
Commission made a decision that we did not need to shut down 
nuclear power plants in this country. We felt that there was no 
imminent risk. I believe that finding is still relevant today 
and appropriate today. I think that at a big-picture level, the 
intervening months have indicated that we were on a good track 
and are on a good track to take an integrated, prioritized 
approach to what actions we need to take. And I think the 
emphasis on Tier 1 activities to date, mitigating strategies, 
station blackout, looking at external hazards has been 
appropriate. And I think that is echoed and been reinforced 
over the last 16, 17 months.
    Mr. Scalise. Thanks. Mr. Magwood?
    Mr. Magwood. I think that over the last year, we have had 
ample opportunity to talk to our international colleagues about 
their response to the Fukushima events. And as I have talked 
with regulators around the world, I have discovered a great 
deal of commonality between what we are doing and the thoughts 
that they are having. We actually are more advanced in many of 
our efforts than they are, so that gives us some reassurance. 
And I think that the more we know about how things actually 
unfolded in Japan over the last several years, we see that the 
Japanese have much more to learn from Fukushima than we did and 
that they are trying to absorb those lessons themselves. And a 
lot of them are cultural issues that are very difficult to 
change.
    So as the last year and a half has gone by, I actually have 
grown in confidence that our steps we have taken are the 
appropriate steps.
    Mr. Scalise. Ms. Svinicki?
    Ms. Svinicki. I agree with my colleagues.
    Mr. Scalise. Thanks. I don't know if you have got maybe a 
top five or just some top safety changes that you think both 
the NRC and the industry have taken. What are some of the top 
things to improve safety that you have seen or that you think 
should be done that haven't been done based on the information 
we know now?
    Mr. Magwood. Let me take the first crack at that. First, 
let me say I do think that the infrastructure that we had and 
the approaches we had before Fukushima were very strong. I 
don't think that they were lacking. But one thing I would point 
to is a greater acceptance of the need to be able to respond to 
beyond-design-basis events. And that is not one specific 
change; it is more of a philosophical change I think that we 
are all dealing with. The idea that you prepare to go beyond 
the worst-case scenario, you provide equipment, you provide 
training, you do whatever you can to be ready to respond in 
case there is a large earthquake or a large flood or a large 
storm. And that is a philosophical change that the agency is 
adopting.
    Mr. Scalise. All right. Thanks.
    If you look at situations where the NRC comes out with new 
requirements to hinder implementation of other recent NRC 
requirements, when you look at the NRC efficiency principle, 
which states, ``regulatory activity should be consistent with 
the degree of risk reduction they achieve,'' I think, 
Commissioner Magwood, you had written, ``it does not as a 
general matter advance the cause of safety to inundate licensee 
staffs with multiple actions when a more thoughtful process 
might achieve the agency's safety goals without straining 
licensee resources.'' Do you have a view on whether staff 
industry concerns on potential cumulative effects on multiple 
new requirements have merit?
    Mr. Magwood. I think there is some merit, but I think it is 
very important to understand why there is merit. And I think 
the reason it is important is to make sure that--and I think 
you and a previous Member put it very well--that you are not 
distracted by issues of low safety significance, and in dealing 
with those, miss something that is much more important. It is 
always most important to focus on priority safety effects but 
make sure you deal with those early. And I do think that we 
ought to look for more ways of addressing that in our process 
to make sure that we aren't focusing too much on the small 
things and missing the big things.
    Mr. Scalise. All right. I see I am out of time. I 
appreciate the answers. I yield back.
    Mr. Shimkus. The gentleman's time is expired.
    The chair now recognizes the gentleman from Massachusetts, 
Mr. Markey, for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman.
    I would like to welcome you, Chairman Macfarlane, and 
congratulate you on your recent confirmation.
    After the Fukushima meltdown, then-Chairman Jaczko created 
a task force to recommend safety upgrades for American nuclear 
reactors. That task force was made up of NRC officials who, 
together, had more than 135 years of nuclear regulatory 
expertise. Its report was released more than a year ago and 
included 12 recommendations, which ranged from requirements to 
upgrade seismic and flood protections against the long power 
outages that were the ultimate cause of the Japanese meltdown. 
They also concluded that each and every one of the 
recommendations were necessary for the adequate protection of 
nuclear power plants and that they should be mandatory for each 
nuclear reactor--mandatory. Chairman Jaczko immediately 
announced his support for all of the NRC staff's 
recommendation. Regrettably, some of his fellow NRC 
commissioners did not do likewise and initially insisted that 
other NRC staff review the task force report before the 
Commission voted on any of the recommendations.
    But this second staff review reached the same conclusions 
as the first one. They concluded that all recommendations 
should be made mandatory. Despite this, the Commission has not 
voted to endorse its top staff reviews, and thus, it is 
possible that some of the Fukushima safety upgrades will never 
be made mandatory for all nuclear power plants.
    Chairman Macfarlane, do you support the conclusion of the 
NRC's top safety experts that all of the post-Fukushima safety 
recommendations are necessary for the adequate protection of 
nuclear power plants?
    Ms. Macfarlane. Thanks for that question. As chairman, I am 
strongly committed to protecting the public health and safety 
and I am strongly committed to shepherding the Fukushima Task 
Force recommendations through. And I----
    Mr. Markey. Do you believe that they should be mandatory?
    Ms. Macfarlane. I think that I need to understand more 
about, especially the Tier 2 and Tier 3 activities, especially 
the Tier 3 activities.
    Mr. Markey. Would it be a good idea or outcome if it turned 
out that the nuclear industry argued its way out of adopting 
some of the recommendations that top experts recommended on the 
grounds that it would be too expensive or inconvenient?
    Ms. Macfarlane. Certainly, that would not be a good 
outcome.
    Mr. Markey. Well, when the NRC staff reviewed the task 
force report, it identified several safety measures that could 
be implemented quickly and I am pleased that the Commission has 
moved forward on these. The staff stated that the fact that 
they had identified some recommendations that could be adopted 
early ``should not be interpreted as a lack of support for the 
other task force recommendations.'' But recently, the Nuclear 
Energy Institute started to discourage the NRC from moving 
forward on the rest of the recommendations saying that the 
recommendations that were adopted would accomplish ``as much as 
90 percent of the safety benefit from all recommendations'' and 
that ``at this time, the safety benefits derived from the rest 
of the recommendations are unclear.''
    So I would like you to respond to this, Chairman 
Macfarlane. Do you agree with the Nuclear Energy Institute that 
the Commission should delay or stop the consideration of the 
rest of the safety recommendations that the NRC's Fukushima 
Task Force made?
    Ms. Macfarlane. Absolutely not.
    Mr. Markey. Absolutely not. And I agree with you. And I 
know that there are other commissioners who disagree with that 
point of view and I would just like to say that you have a very 
difficult job ahead of you, Madam Chair, and you need to keep 
in mind that your duty is not to win a popularity contest at 
the NRC with commissioners who disagree with this safety agenda 
but you must lead it in an absolutely critical time when it is 
faced with a daunting task of responding to the lessons of the 
Fukushima nuclear meltdowns in a way that ensures that such a 
thing never happens in the United States. You are charged with 
the task of ensuring the safety of our fleet of existing 
nuclear plants, of licensing any new ones, and of responding to 
what future course our nation takes with respect to the 
seemingly intractable issues of how to dispose of all of the 
toxic high level nuclear waste.
    And while I would hope that all would be sweetness and 
light over at the Nuclear Regulatory Commission, I seriously 
doubt that that will be the case. So don't be afraid to stick 
to your guns and do what is right for the American people, even 
if that puts you on the losing side of a vote. For in the end, 
Madam Chair, your term as chairman will be judged on whether 
you have successfully completed the task of fully implementing 
the NRC Task Force recommendation on Fukushima, on ensuring 
that there is safety in the disposal of nuclear waste. And that 
will be your legacy, notwithstanding the fact that there are 
going to be other members of the Commission who disagree with 
that agenda.
    Thank you, Mr. Chairman.
    Mr. Shimkus. The gentleman's time is expired.
    The chair now recognizes the gentleman from Oregon, Mr. 
Walden, for 5 minutes.
    Mr. Walden. I thank the chairman and I welcome the new 
chairwoman to the Commission. We appreciate you and your 
colleagues and the important role that you play in providing 
safety and security to our nation's nuclear power facilities. 
As my colleagues I think up and down the aisle and across the 
aisle, we all believe that that is an essential part of your 
job both moving forward with nuclear energy development but 
making sure we are safe along the way.
    I would like to ask the other commissioner since you 
weren't given a chance to respond to my colleague's question 
regarding the task force recommendations, your views on those 
recommendations, and whether you believe they should be just 
automatically adopted or not or why they are not. And maybe we 
could just go from left to right since the chairwoman had a 
chance to respond.
    Ms. Svinicki. Thank you for the question, Congressman.
    Upon receipt of those recommendations from the task force I 
voted, as did a commission majority, to take that output of 
that small group, albeit very experienced as Congressman Markey 
mentioned, they were just a small group of individuals. And I 
voted to subject those recommendations to the opportunity for 
public outreach, for comment, for a wide diversity of 
stakeholders to have an opportunity to comment on that and then 
for the NRC staff to synthesize all of that input and 
prioritize and propose to the Commission a plan for moving 
forward on those recommendations. Sitting here today, I 
continue to believe that that was a fulsome and appropriate way 
to proceed.
    Mr. Walden. So there had not been a transparent or public 
process prior to that?
    Ms. Svinicki. There had not been an opportunity to 
ventilate or to have public comment on those recommendations.
    Mr. Walden. Is that a normal process at an independent 
agency?
    Ms. Svinicki. I think that it is not inappropriate for 
commissioners to have, as a starting point, a small experienced 
group provide some advice. And it was comprised solely of NRC 
staff. But I do think that it was important to take that very 
timely and I think informed output and subject it to a much 
broader kind of opportunity for public comment.
    Mr. Walden. Appreciate that.
    Mr. Magwood, would you care to comment?
    Mr. Magwood. Yes, I think Commissioner Svinicki said it 
very well. In addition, we also insisted that the Advisory 
Committee on Reactor Safeguards, our expert, outside 
independent advisory group, give us input as to their thoughts 
about these recommendations. And we also, because we were 
learning as we went during that process, we individual 
commissioners actually did make additions, not subtractions but 
additions to what the task force recommended.
    Mr. Walden. Is that right?
    Mr. Magwood. Absolutely. There were several instances where 
our colleague, Commissioner Apostolakis put in new items. I put 
in new items. Others did as well. So we----
    Mr. Walden. Additional safeguard items?
    Mr. Magwood. Additional items for study that I believe will 
eventually be adopted. And I think these are very important. 
And Commissioner Ostendorff, for example, made the addressing 
the station blackout a very high priority, higher than I think 
the staff had originally anticipated. So the Commission took a 
very active role in this and I think a very positive, very 
beneficial role, and I am very proud of what we did.
    Mr. Walden. Commissioner Ostendorff, so explain to me this 
station blackout role and why that was an important addition 
from your perspective.
    Mr. Ostendorff. Yes, sir. The station blackout rule 
evaluation really refers to when you have a loss of all 
alternating current AC power onsite----
    Mr. Walden. Um-hum.
    Mr. Ostendorff [continuing]. And AC power----
    Mr. Walden. Much like what happened at Fukushima.
    Mr. Ostendorff. Yes. And AC power is needed to drive 
centrifugal pumps----
    Mr. Walden. Right.
    Mr. Ostendorff [continuing]. That provide cooling to remove 
decay heat from a core. And so the ability of a plant to have 
robust redundant power sources, including emergency diesel 
generators, portable generators, DC batteries, the ability to--
--
    Mr. Walden. Right.
    Mr. Ostendorff [continuing]. Recharge those batteries, all 
those things are part of the calculus of how we can have a more 
robust opportunity to provide this required decay heat removal 
capability.
    Mr. Walden. And was it your view that the task force 
recommendations didn't go far enough along those lines?
    Mr. Ostendorff. Well, I think the task force did a 
tremendous job given the fact they had 90 days or less to do 
what they did.
    Mr. Walden. Um-hum.
    Mr. Ostendorff. But I will note that the task force 
recommendations themselves were not accompanied by a regulatory 
technical analysis. And before we go out as a regulator and 
issue orders or require things to be changed, it is incumbent 
upon us to have a regulatory technical analysis.
    Mr. Walden. Right.
    Mr. Ostendorff. And so that is part of the things that 
Commissioner Svinicki, Commissioner Magwood, Commissioner 
Apostolakis, and I have been very adamant about over the last 
16 months is to ensure we have that technical analysis.
    Mr. Walden. Right.
    Mr. Ostendorff. I would tell you that, as Commissioner 
Magwood said, that there are areas that have been added in. 
Commissioner Magwood added in issues on spent fuel pool 
instrumentation, as well as an ultimate heat sink, so the mix 
before the Commission today is broader than that that was 
presented in July of 2011.
    Mr. Walden. Well, I appreciate that and I know I am just 
out of time here, but I appreciate the fact you are doing a 
public, transparent process so that more than just a handful of 
inside staffers decide what is going to be mandatory across the 
country. It is something I have drive as chairman of the 
Communications and Technology Subcommittee at the FCC. I don't 
think they do enough of the appropriate sort of public, 
transparent process where everybody has a chance to weigh in. 
After all, it is the public's business, in your case the public 
safety, and I think it is important to get it right.
    So thank you, Mr. Chairman, for your indulgence.
    Mr. Shimkus. I thank my colleague. The chair recognizes the 
gentleman from Virginia for 5 minutes.
    Mr. Griffith. Mr. Chairman, thank you for having this 
hearing. I have to tell you all, those of us who were here the 
last time that you all were before us know that I was very 
concerned that the process was completely dysfunctional. I feel 
much better today.
    That being said, Mr. Chairman, I would like to yield the 
time remaining to you for whichever questions you would like to 
ask.
    Mr. Shimkus. And I thank my friend and colleague.
    Chairman Macfarlane, when nominated to become a 
commissioner, Chairman Jaczko recused himself for 1 year on 
matters relating to Yucca Mountain. In 2009, when asked by a 
writer for the MIT Technological Review, ``is it (Yucca 
Mountain) really unsuitable? And you answered yes. In your role 
as NRC chairman you must be fair and objective in adjudicating 
issues that come before the Commission. Your public criticism 
at Yucca Mountain leads us to question your objectivity on the 
matter.'' Will you recuse yourself on matters relating to Yucca 
Mountain just as Chairman Jaczko did?
    Ms. Macfarlane. Like any commissioner, I would examine each 
and every matter before me on the legal specifics at the time 
and take appropriate action, which could include possible 
recusal. But at this point, I believe it is inappropriate to 
commit to a general recusal on this matter without a specific 
commission action in front of me to evaluate with counsel 
input.
    Mr. Shimkus. You have been well prepared. Thank you.
    The DC Circuit Court is considering whether the NRC is 
bound to finish its review of the Yucca Mountain license 
application. In March, Secretary Chu committed to honor that 
court's decision. Will you also commit to honor the court's 
decision?
    Ms. Macfarlane. Absolutely.
    Mr. Shimkus. What do you see as the Federal Government's 
proper role in encouraging the use of alternative fuels in 
vehicles?
    Ms. Macfarlane. Alternative fuels in vehicles?
    Mr. Shimkus. I have no idea why this is on there.
    Ms. Macfarlane. Because the NRC doesn't do that.
    Mr. Shimkus. Well, when we talk about electric vehicles, 
there could be some debate on electricity generation.
    To each of the serving commissioners, you know, as a 
hearing, this has been a very good hearing. Now, that is Mr. 
Markey going up there to stop me in my final--see, I called him 
out. So I think the hearing has been very, very good and we 
have got one more colleague back to ask questions.
    But there is some issues that have been raised that I want 
to give Commissioner Svinicki, Commissioner Magwood, and 
Commissioner Ostendorff an opportunity to--because some of your 
votes have been questioned by people who say that you don't 
support safety. So can each one of you give an example of a 
vote that has been misconstrued and explain why your vote was 
protective of public safety?
    Mr. Shimkus. Commissioner Svinicki?
    Ms. Svinicki. I would begin with the matter we were just 
discussing, which is the Commission's very important actions on 
the Fukushima Task Force recommendations. I will use the same 
word as Commissioner Magwood. I am very proud of what the 
commission majority put in place. I think that we have shown a 
real commitment to safety, to moving forward in a way that has 
technical discipline and rigor but at the same time is moving 
forward very seriously with these recommendations. And I think 
that the entire handling of the task force report has been 
extremely misconstrued.
    Mr. Shimkus. Commissioner Magwood?
    Mr. Magwood. Yes, I think I am forced to point to the same 
example. There has been this debate about the regulatory basis 
for our decision as to whether they should be entered what we 
call adequate protection or an administrative exemption. And in 
some cases one of us or the other have advocated administrative 
exemption. And in my case it wasn't because I thought that 
these issues weren't important. It was simply, as Commissioner 
Ostendorff pointed out earlier, that I thought we needed to 
have a much more rigorous technical basis to evaluate these 
issues. But I wanted them to go forward but still preserve the 
opportunity to do the analysis so they could provide a very 
strong framework for us to go forward. So operationally they 
mean the same thing, but from a regulatory standpoint, it gives 
you a stronger basis to go forward and that is what I was 
looking for.
    Mr. Shimkus. Thank you.
    Commissioner Ostendorff?
    Mr. Ostendorff. Thank you for the question. I think my two 
colleagues have just provided very cogent examples which I 
agree with. I will just state one overall comment that I think 
the actions that the current commissioners have taken who have 
been here through the Fukushima issues have been very 
responsible, that I think in large part what gets left out of a 
lot of the public press commentary is that we are by and large 
following the recommendations of our close to 4,000-person 
staff. Bill Borchardt here who is in the row behind us, he and 
his team under the Steering Committee have been integrating and 
prioritizing these recommendations, and I think we have been 
very thoughtful in considering the recommendations. Also 
realize that not all these issues are of the same safety 
significance, and therefore, some deserve more urgency than 
others. And I think today we have acted in that way.
    Mr. Shimkus. And I thank you. And I know a lot of this was 
post-Fukushima but I think there is also examples of other 
issues that you could probably defend your vote on on public 
safety. So with that, I appreciate it.
    The chair now recognizes the vice chairman of the 
committee, Mr. Murphy, for 5 minutes.
    Mr. Murphy. Don't you want to say I am in the Navy?
    Mr. Shimkus. I said beat Navy. You were here there, weren't 
you? Or that is why you are so late and didn't ask questions 
because you didn't get here on time?
    Mr. Murphy. Admiral, I want to start out by asking you. You 
have been involved with issues with the Navy nuclear for a 
while. You are aware of that. Have we ever had any major 
problems with nuclear energy systems in the Navy in its 
history?
    Mr. Ostendorff. I would say as far as major problems, no, 
sir.
    Mr. Murphy. That is an important record. How many years has 
it been?
    Mr. Ostendorff. I served 26 years active duty.
    Mr. Murphy. But the Navy has been around----
    Mr. Ostendorff. The Nuclear Navy has been around since USS 
Nautilus back in 1954, I believe, they had nuclear power 
submarines and carriers.
    Mr. Murphy. Good track record. Thank you.
    And then, Chairman, thank you for coming aboard. I 
appreciate your comments about collegiality. And if it hasn't 
been said before, I will say it now, and if it has, I will 
repeat it. It is valuable. Not only collegiality among members 
of the NRC, which up to this point--well, up to a point a few 
months ago--has had a highly respected position and I believe 
that collegiality is extremely important not just among members 
of the Commission but with Congress and with the American 
people. So I appreciate your motivation to turn this in a 
different direction.
    I just want to get a couple things on record. Have you been 
to a nuclear power plant?
    Ms. Macfarlane. Have I been to a nuclear power plant? Yes.
    Mr. Murphy. OK. And have you been to a fuel manufacturing 
facility where they make nuclear fuel and assemble it and 
assembly rods, et cetera?
    Ms. Macfarlane. Yes, I have, actually.
    Mr. Murphy. OK. Where was that?
    Ms. Macfarlane. It was in Europe.
    Mr. Murphy. Where? I am just curious.
    Ms. Macfarlane. I think it was Belgium.
    Mr. Murphy. OK. Thank you, ma'am. And when you were over in 
Europe, did you have a chance to see what they do in France 
with reprocessing nuclear fuel?
    Ms. Macfarlane. Yes, I have. I have been to La Hague.
    Mr. Murphy. The AREVA place? Have you been over to Sweden 
where they have nuclear storage there----
    Ms. Macfarlane. Yes, I have.
    Mr. Murphy [continuing]. Underground in that massive cave?
    Ms. Macfarlane. Yes, to the Clab facility, yes, um-hum.
    Mr. Murphy. Pretty incredible facility over there. Safe?
    Ms. Macfarlane. Yes.
    Mr. Murphy. I imagine you are particularly interested as a 
geologist noting the entire country of Sweden is in one big 
block of granite and fairly----
    Ms. Macfarlane. Well, it is a little more complicated than 
that.
    Mr. Murphy. I understand, different types of granite but it 
is an impressive facility. Have you been to Yucca Mountain?
    Ms. Macfarlane. Yes, many times.
    Mr. Murphy. OK, you have been there. And with regard to 
that, one of the concerns on record that you have stated before 
you took on this position with the committee that you are not 
in favor of Yucca Mountain and I believe you are not in favor 
of reprocessing. Do I have those positions correct or am I 
wrong on those?
    Ms. Macfarlane. I think you are wrong on them. On the Yucca 
Mountain position, I have never said that I am not in favor of 
Yucca Mountain. In fact, I can read to you----
    Mr. Murphy. I would love to hear that, thank you.
    Ms. Macfarlane [continuing]. From the book that I co-
edited, ``Uncertainty Underground,'' and a direct quote is 
``this book is not a judgment on the suitability of Yucca 
Mountain as a repository''----
    Mr. Murphy. I am sorry. What was the title of the book, 
``Uncertainty?''
    Ms. Macfarlane. ``Uncertainty Underground.''
    Mr. Murphy. Sounds like a comment to me.
    Ms. Macfarlane. It is a comment, yes----
    Mr. Murphy. All right.
    Ms. Macfarlane [continuing]. It is a comment about 
uncertainty that exists. But it is a technical uncertainty. 
Anyway, the quote is ``this book is not a judgment on the 
suitability of Yucca Mountain as a repository for spent nuclear 
fuel and high-level nuclear waste. We leave that judgment to 
the reader.''
    Mr. Murphy. I understand, but with a title like that, I am 
serious, I am looking forward to reading your book.
    And now your predecessor, Chairman Jaczko, held a fairly 
negative view I think of the nuclear industry and nuclear 
energy. In a speech earlier this year he indicated that 20 
years from now, the nuclear industry is just as likely to ``be 
dominated by a process of continuous decommissioning'' instead 
of a process of continuous construction of nuclear reactors. 
What is your view on that?
    Ms. Macfarlane. On the future of the nuclear industry? I 
think it depends on many, many factors. The economics, 
certainly the economy right now.
    Mr. Murphy. And policy?
    Ms. Macfarlane. Policy, absolutely.
    Mr. Murphy. Policy at the NRC?
    Ms. Macfarlane. The policy at NRC to a smaller degree I 
would imagine.
    Mr. Murphy. All right. Please share your opinion regarding 
the benefits and transparency of the notation voting process of 
the members.
    Ms. Macfarlane. As far as I understand the notation voting 
process, I think it has the potential to operate fine. Were 
there to be any changes to the voting process, I would discuss 
those with my colleagues before proceeding.
    Mr. Murphy. How about the other commissioners? Ms. 
Svinicki, do you have a comment on that?
    Ms. Svinicki. On the notation voting----
    Mr. Murphy. Yes, um-hum.
    Ms. Svinicki [continuing]. Process? I am supportive of the 
notation voting process. When I was newly on the Commission, I 
benefited greatly from the rich written record of prior votes 
of Commissioners. Often we were dealing with the same issue in 
a different form a few years later. The ability to tap into the 
tremendous expertise of those who served before me was very 
beneficial.
    Mr. Magwood. I think about a week ago I saw a vote that 
Commissioner Svinicki had written that raised issues that we in 
my office had missed. So we investigated Commissioner 
Svinicki's comments and her vote, took a few days to do that, 
but after investigating it, I withdrew my original vote and re-
voted. That is an example of the kind of dynamic you get from a 
notation voting process that you would completely lose----
    Mr. Murphy. Um-hum.
    Mr. Magwood [continuing]. If you go to an oral, at-the-
table process because you don't have time to go back and do 
research and you don't have time to confer with staff. And so I 
think a notation voting process works extremely well and I 
wouldn't really change much of anything.
    Mr. Murphy. Thank you.
    Commissioner Ostendorff?
    Mr. Ostendorff. I would just add I agree with my 
colleagues. I pulled out a vote I cast July 27 of last year. It 
is a 5-page vote on Fukushima issues. These are not yes-or-no 
issues. These are not up or down. These are very complex, here 
is my vote. Other colleagues have similar lengthy votes where I 
think we have a very rich opportunity to learn from and explain 
our viewpoints in a way that we would not have if this process 
went away.
    Mr. Murphy. I appreciate the complexity of those.
    Mr. Chairman, can I just beg for one more since I don't see 
anybody else?
    Mr. Shimkus. Without objection.
    Mr. Murphy. Thirty seconds. And then, Chair, in 2009 when 
you were asked by a writer for the MIT Technology Review, the 
question ``is Yucca really unsuitable?'' You answered yes at 
that time. Are you saying your opinion has changed? And I put 
this in the context of what the other commissioner said, the 
value of having a more lengthy and detailed answer to things 
because maybe these things cannot be reduced to a yes/no 
answer. Has your position changed? Is it yes? Is it no? Is it 
we have more work to do?
    Ms. Macfarlane. I am not sure the context of that quote, so 
I can't speak directly to that quote, but what I can tell you--
and maybe in a sense of reassuring--is that I have spent much 
time researching Yucca Mountain. I believe all the analyses 
that I have done are technically defensible. As a scientist, I 
would not try to publish anything that wasn't technically 
defensible; it wouldn't be publishable. Most of the analyses 
that I did of Yucca Mountain for the book, which was published 
in 2006, were done in the early 2000 time frame. That was 
before the license application was submitted. I have not read 
the license application. I have not read yet the NRC's 
technical analyses. Of course, with time, knowledge, changes, 
more evidence comes to light, and I intend to keep an open 
mind.
    Mr. Murphy. I appreciate your candor and your scientific 
integrity. Thank you very much.
    I yield back.
    Mr. Shimkus. The gentleman's time has expired.
    We were talking about votes. We took a vote this spring on 
finishing the NRC study; 326 Members voted to do that so I 
think it is by far the majority bipartisan consensus that we 
move forward at least finishing the study.
    With that, I would like to ask unanimous consent that June 
26, 2012, NRC Office of Inspector General report concerning 
possible violations of Reorganization Plan No. 1 of 1980, NRC's 
internal commission procedures be introduced into the record. 
Without objection, the document will be entered into the 
record.
    [The information is available at http://www.hsdl.org/
?view&did=719161.]
    Mr. Shimkus. In conclusion, I would like to thank you, all 
you witnesses, and my colleagues, you could see it was very 
well attended, a lot of good questions participating today in 
the hearing.
    I want to remind members that they have 10 business days to 
submit questions for the record, and I ask the chairman and the 
commissioners their willingness to agree to respond should you 
receive any questions from members of the two subcommittees.
    With that, the subcommittee is adjourned.
    [Whereupon, at 12:36 p.m., the subcommittees were 
adjourned.]
[GRAPHIC] [TIFF OMITTED] T2625.022

[GRAPHIC] [TIFF OMITTED] T2625.023

[GRAPHIC] [TIFF OMITTED] T2625.024

[GRAPHIC] [TIFF OMITTED] T2625.025

[GRAPHIC] [TIFF OMITTED] T2625.026

[GRAPHIC] [TIFF OMITTED] T2625.027

[GRAPHIC] [TIFF OMITTED] T2625.028

[GRAPHIC] [TIFF OMITTED] T2625.029

[GRAPHIC] [TIFF OMITTED] T2625.030

[GRAPHIC] [TIFF OMITTED] T2625.031

[GRAPHIC] [TIFF OMITTED] T2625.032

[GRAPHIC] [TIFF OMITTED] T2625.033

[GRAPHIC] [TIFF OMITTED] T2625.034

[GRAPHIC] [TIFF OMITTED] T2625.035

[GRAPHIC] [TIFF OMITTED] T2625.036

[GRAPHIC] [TIFF OMITTED] T2625.037

[GRAPHIC] [TIFF OMITTED] T2625.038

[GRAPHIC] [TIFF OMITTED] T2625.039

[GRAPHIC] [TIFF OMITTED] T2625.040

[GRAPHIC] [TIFF OMITTED] T2625.041

[GRAPHIC] [TIFF OMITTED] T2625.042

[GRAPHIC] [TIFF OMITTED] T2625.043

[GRAPHIC] [TIFF OMITTED] T2625.044

[GRAPHIC] [TIFF OMITTED] T2625.045

[GRAPHIC] [TIFF OMITTED] T2625.046

[GRAPHIC] [TIFF OMITTED] T2625.047

[GRAPHIC] [TIFF OMITTED] T2625.048

[GRAPHIC] [TIFF OMITTED] T2625.049

[GRAPHIC] [TIFF OMITTED] T2625.050

[GRAPHIC] [TIFF OMITTED] T2625.051

[GRAPHIC] [TIFF OMITTED] T2625.052

[GRAPHIC] [TIFF OMITTED] T2625.053

[GRAPHIC] [TIFF OMITTED] T2625.054

[GRAPHIC] [TIFF OMITTED] T2625.055

[GRAPHIC] [TIFF OMITTED] T2625.056

[GRAPHIC] [TIFF OMITTED] T2625.057

[GRAPHIC] [TIFF OMITTED] T2625.058

[GRAPHIC] [TIFF OMITTED] T2625.059

[GRAPHIC] [TIFF OMITTED] T2625.060

[GRAPHIC] [TIFF OMITTED] T2625.061

[GRAPHIC] [TIFF OMITTED] T2625.062

[GRAPHIC] [TIFF OMITTED] T2625.063

[GRAPHIC] [TIFF OMITTED] T2625.064

[GRAPHIC] [TIFF OMITTED] T2625.065


                                 <all>

</pre></body></html>
